<html>
<title> - KEEPING COLLEGE WITHIN REACH: MEETING THE NEEDS OF CONTEMPORARY STUDENTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


 
                       KEEPING COLLEGE WITHIN REACH:
                          MEETING THE NEEDS OF
                         CONTEMPORARY STUDENTS

=======================================================================

                                 HEARING

                               BEFORE THE

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 2, 2014

                               __________

                           Serial No. 113-56

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
            
                              ____________
                              
                              
                     U.S. GOVERNMENT PUBLISHING OFFICE
87-286                   WASHINGTON : 2015                     
                
___________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7e190e113e1d0b0d0a161b120e501d111350">[email&#160;protected]</a>  
               
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert C. ``Bobby'' Scott, 
Joe Wilson, South Carolina               Virginia
Virginia Foxx, North Carolina        Ruben Hinojosa, Texas
Tom Price, Georgia                   Carolyn McCarthy, New York
Kenny Marchant, Texas                John F. Tierney, Massachusetts
Duncan Hunter, California            Rush Holt, New Jersey
David P. Roe, Tennessee              Susan A. Davis, California
Glenn Thompson, Pennsylvania         Raul M. Grijalva, Arizona
Tim Walberg, Michigan                Timothy H. Bishop, New York
Matt Salmon, Arizona                 David Loebsack, Iowa
Brett Guthrie, Kentucky              Joe Courtney, Connecticut
Scott DesJarlais, Tennessee          Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Larry Bucshon, Indiana               Gregorio Kilili Camacho Sablan,
Trey Gowdy, South Carolina             Northern Mariana Islands
Lou Barletta, Pennsylvania           Frederica S. Wilson, Florida
Joseph J. Heck, Nevada               Suzanne Bonamici, Oregon
Susan W. Brooks, Indiana             Mark Pocan, Wisconsin
Richard Hudson, North Carolina
Luke Messer, Indiana

                    Juliane Sullivan, Staff Director
                 Jody Calemine, Minority Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 2, 2014....................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
    Miller, Hon. George, Senior Democratic Member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Boughman, Joann A., Dr., Senior Vice Chancellor for Academic 
      Affairs, University of Maryland, Adelphi, MD...............    50
        Prepared statement of....................................    52
    Gilligan, Kevin, Chairman and CEO, Capella Education Company, 
      Minneapolis, MN............................................    17
        Prepared statement of....................................    19
    Jones, Stan, President, Complete College America, 
      Indianapolis, IN...........................................    57
        Prepared statement of....................................    59
    Keel, Brooks A., Dr., President, Georgia Southern University, 
      Statesboro, GA.............................................    71
        Prepared statement of....................................    73
    Moldoff, David K., CEO and Founder of AcademyOne, Inc........    28
        Prepared statement of....................................    31
    Pruitt, George A., President, Thomas Edison State College, 
      Trenton, NJ................................................    10
        Prepared statement of....................................    12


                 KEEPING COLLEGE WITHIN REACH: MEETING
                   THE NEEDS OF CONTEMPORARY STUDENTS

                              ----------                              


                        Wednesday, April 2, 2014

                       House of Representatives,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The committee met, pursuant to call, at 10:04 a.m., in Room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Wilson, Foxx, Price, 
Walberg, Salmon, Guthrie, DesJarlais, Bucshon, Brooks, Messer, 
Miller, Scott, Hinojosa, Tierney, Holt, Davis, Courtney, Fudge, 
Polis, and Bonamici.
    Staff present: Janelle Belland, Coalitions and Member 
Services Coordinator; Amy Raaf Jones, Deputy Director of 
Education and Human Services Policy; Nancy Locke, Chief Clerk; 
Daniel Murner, Press Assistant; Krisann Pearce, General 
Counsel; Jenny Prescott, Legislative Assistant; Emily Slack, 
Professional Staff Member; Alex Sollberger, Communications 
Director; Alissa Strawcutter, Deputy Clerk; Juliane Sullivan, 
Staff Director; Tylease Alli, Minority Clerk/Intern and Fellow 
Coordinator; Kelly Broughan, Minority Education Policy 
Associate; Jody Calemine, Minority Staff Director; Eamonn 
Collins, Minority Fellow, Education; Jamie Fasteau, Minority 
Director of Education Policy; Julia Krahe, Minority 
Communications Director; Brian Levin, Minority Press Secretary; 
Megan O'Reilly, Minority General Counsel; Rich Williams, 
Minority Education Policy Advisor; and Michael Zola, Minority 
Deputy Staff Director.
    Chairman Kline. A quorum being present, the committee will 
come to order. Good morning and welcome.
    Thank you for joining us for the committee's 14th and 
likely final hearing in preparation for the reauthorization of 
the Higher Education Act. I look forward to a robust discussion 
with my colleagues and our witnesses on ways institutions can 
better serve contemporary students.
    As we have discussed in previous hearings, student 
demographics are changing rapidly and remarkably. The days when 
the majority of college students were between the ages of 18 
and 22, attending college full-time right after graduating from 
high school, are over. Today more than half of postsecondary 
students are so-called ``nontraditional'' students.
    These contemporary students often have families, work full- 
or part-time, and are financially independent. They return to 
school with one overarching goal: to quickly and affordably 
gain new skills that will help them compete for area jobs and 
new career opportunities.
    Recognizing this new demand, higher education institutions 
are exploring new modes of education delivery. To help students 
earn a degree faster, a number of schools now offer prior 
learning assessments. Students are evaluated based on their 
existing knowledge in a particular subject, providing the 
opportunity to progress in a degree program without being 
forced to first complete redundant or unnecessary courses.
    At a previous hearing, Council for Adult and Experimental 
Learning President and CEO Dr. Pamela Tate shared examples of 
students who have benefitted from prior learning assessments, 
such as the Navy veteran who was able to use his military and 
job training to gain credits toward his bachelor's degree in 
industrial manufacturing engineering.
    Other institutions are embracing technology, providing new 
opportunities for students to complete online courses at their 
own pace. At Western Governor's University, the largest online-
only institution, a flexible, competency-based education model 
makes it easier for students to earn a degree while balancing 
demands of family and work.
    Recognizing some contemporary students may have previously 
earned college credits or would like to earn a degree at a 
lower cost by fulfilling some course requirements at local 
community colleges, states are collaborating with institutions 
to implement comprehensive articulation agreements. These 
agreements make it easier for students to transfer credits 
between institutions, reducing redundancy and helping raise 
degree completion rates.
    In Louisiana, for example, associate's degrees earned at 2-
year community colleges are guaranteed to transfer completely 
to 4-year institutions. Additionally, some states are expanding 
their articulation agreements to include bordering states and 
private institutions, providing students more flexibility and 
options when earning a postsecondary degree.
    We are fortunate to have with us today an excellent panel 
of witnesses who can offer more examples of ways postsecondary 
institutions, private entities, and states are working to help 
contemporary students realize their education goals.
    We look forward to your testimony.
    Supporting innovation in the nation's colleges and 
universities remains a key priority for the reauthorization of 
the Higher Education Act. However, as we have seen in the K-12 
education system, such innovation should be encouraged from the 
ground up, not mandated from Washington.
    In recent years the administration has tried repeatedly to 
impose new, burdensome regulations on the nation's colleges and 
universities in the name of program integrity. The gainful 
employment, credit hour, and state authorization regulations 
have been widely rejected by education stakeholders, Congress, 
and the federal court system for the simple fact that these 
rules will hamper innovation, reduce academic freedom, and 
limit choice and opportunity in higher education.
    The committee has advanced legislation to combat these 
controversial regulations and will continue to explore 
additional opportunities to rein in the administration's 
efforts to impose harmful mandates on students and schools. 
Additionally, as we begin drafting legislation to reauthorize 
the Higher Education Act, we must include policies that 
promote--not dictate--continued innovation and flexibility in 
postsecondary institutions. We cannot allow federal barriers to 
stand in the way of the services and opportunities students 
deserve.
    Once again, I would like to thank our witnesses for joining 
us today.
    And I would now like to yield to the senior Democratic 
member of the committee, Mr. George Miller, for his opening 
remarks.
    [The statement of Chairman Kline follows:]

Prepared Statement of Hon. John Kline, Chairman, Committee on Education 
                           and the Workforce

    Good morning and welcome. Thank you for joining us for the 
committee's 14th and likely final hearing in preparation for the 
reauthorization of the Higher Education Act. I look forward to a robust 
discussion with my colleagues and our witnesses on ways institutions 
can better serve contemporary students.
    As we have discussed in previous hearings, student demographics are 
changing rapidly and remarkably. The days when the majority of college 
students were between the ages of 18 and 22, attending college full-
time right after graduating from high school, are over. Today more than 
half of postsecondary students are so-called ``non-traditional'' 
students.
    These contemporary students often have families, work full- or 
part-time, and are financially independent. They return to school with 
one overarching goal: to quickly and affordably gain new skills that 
will help them compete for area jobs and new career opportunities. 
Recognizing this new demand, higher education institutions are 
exploring new modes of education delivery.
    To help students earn a degree faster, a number of schools now 
offer prior learning assessments. Students are evaluated based on their 
existing knowledge in a particular subject, providing the opportunity 
to progress in a degree program without being forced to first complete 
redundant or unnecessary courses.
    At a previous hearing, Council for Adult and Experimental Learning 
president and CEO Dr. Pamela Tate shared examples of students who have 
benefitted from prior learning assessments, such as the Navy veteran 
who was able to use his military and job training to gain credits 
toward his bachelor's degree in Industrial Manufacturing Engineering.
    Other institutions are embracing technology, providing new 
opportunities for students to complete online courses at their own 
pace. At Western Governor's University, the largest online-only 
institution, a flexible competency-based education model makes it 
easier for students to earn a degree while balancing the demands of 
family and work.
    Recognizing some contemporary students may have previously earned 
college credits, or would like to earn a degree at a lower cost by 
fulfilling some course requirements at local community colleges, states 
are collaborating with institutions to implement comprehensive 
articulation agreements. These agreements make it easier for students 
to transfer credits between institutions, reducing redundancy and 
helping raise degree completion rates.
    In Louisiana, for example, associate's degrees earned at two-year 
community colleges are guaranteed to transfer completely to four-year 
institutions. Additionally, some states are expanding their 
articulation agreements to include bordering states and private 
institutions, providing students more flexibility and options when 
earning a postsecondary degree.
    We are fortunate to have with us today an excellent panel of 
witnesses who can offer more examples of ways postsecondary 
institutions, private entities, and states are working to help 
contemporary students realize their education goals. We look forward to 
your testimony.
    Supporting innovation in the nation's colleges and universities 
remains a key priority for the reauthorization of the Higher Education 
Act. However, as we have seen in the K-12 education system, such 
innovation should be encouraged from the ground up, not mandated from 
Washington.
    In recent years, the administration has tried repeatedly to impose 
new, burdensome regulations on the nation's colleges and universities 
in the name of ``program integrity.'' The gainful employment, credit 
hour, and state authorization regulations have been widely rejected by 
education stakeholders, Congress, and the federal court system for the 
simple fact that these rules will hamper innovation, reduce academic 
freedom, and limit choice and opportunity in higher education.
    The committee has advanced legislation to combat these 
controversial regulations, and will continue to explore additional 
opportunities to rein in the administration's efforts to impose harmful 
mandates on students and schools. Additionally, as we begin drafting 
legislation to reauthorize the Higher Education Act, we must include 
policies that promote - not dictate - continued innovation and 
flexibility in postsecondary institutions. We cannot allow federal 
barriers to stand in the way of the services and opportunities students 
deserve.
    Once again, I'd like to thank our witnesses for joining us today. I 
would now like to yield to the senior Democratic member of the 
committee, George Miller, for his opening remarks.
                                 ______
                                 
    Mr. Miller. Good morning. Thank you, Mr. Chairman, and 
thank you for holding this hearing.
    And thank you for the witnesses for giving this your time 
and expertise.
    By 2018 we know that our economy will need 22 million new 
workers with college degrees and that we will fall short of 
that need by three million people. To hit those goals we need 
to recognize that many of today's students are very different 
from the students for whom the Higher Education Act was 
created.
    More than one-third of today's college students are over 
25. The average age of community college students is 29. And 
two-thirds of community college students attend part-time.
    Students rely on diverse ways of learning like online 
education, which served over five million students in 2012. 
Institutions are exploring with new models of education, like 
competency-based education.
    But students face substantial barriers to completing their 
degrees and graduating as they move through the higher 
education system. To ensure that we are preparing sufficient 
college graduates to meet the workforce demands, we need to 
eliminate the barriers that prevent too many students from 
earning their degree and securing their place in the middle 
class.
    Time and again I hear that students are wasting time and 
money as they try to transfer between institutions. More than 
one-third of college students switch schools prior to receiving 
a degree, and many transfer more than once.
    Unfortunately, too many students find themselves losing 
credits and unnecessarily repeating classes when they transfer. 
These points of friction increase as more students utilize 
different modes and pathways toward graduation, such as online 
education and credentialing of prior learning, and that 
friction wastes money for the taxpayers and for the students, 
as well as the students' time. It also makes students much less 
likely to complete their degrees and graduate, and this is 
unacceptable.
    Right now nearly 15 percent of students transferring from 
community colleges lose 90 percent or more of the credits, 
which essentially means they have to start over. These are 
students the vast majority of which are borrowing money to pay 
for their education.
    Chairman, I thank you for mentioning articulation 
agreements. I hope that we can incorporate this in a rewrite of 
the Higher Education Act.
    Under a bill I introduced yesterday with Representatives 
Hinojosa and Polis and Fudge, an in-state student attending a 
public 2-year college would be able to ensure that their 
associate degree transfers to an in-state public 4-year 
college. They would receive junior status at the 4-year school 
and save nearly $18,000 compared to the students who are forced 
to start over. That would make a big dent in the cost of 
college.
    Around the country at least 36 states have already passed 
legislation to establish clear transfer pathways and 
articulation agreements, so the Transferring College Credit and 
Completion Act of 2014 draws on those state policies. The bill 
provides a framework for states to establish a statewide 
transfer arrangement so that it will save students time and 
money, including a 30-credit minimum general education core of 
classes shared across 2-and 4-year public institution with 
common course numbering and a guarantee that the associate's 
degree fulfills the two years of a related program at any 
public 4-year institution within the state, allowing community 
college students to transfer with junior status.
    These kinds of policies have a proven track record in 
raising graduation rates and lowering the cost by increasing 
transparency and creating guaranteed pathways to graduation.
    In addition, we will hear today that too many students are 
starting college behind and are not given support they need to 
catch up and complete their degrees. Remediation presents a 
substantial hurdle to college completion, particularly for low-
income students, resulting in a high dropout rate and failure 
rates.
    Across the college, colleges are beginning to identify new 
best practices to increase the success rate of remedial 
education. Rather than mandating enrollment in non-credit-
bearing remedial classes as a prerequisite to college-level 
coursework, some institutions are experimenting with a 
corequisite model, in which students enroll in college-level 
courses but are simultaneously receiving extra instruction and 
support.
    Competency-based education offers another avenue to prevent 
wasting time and money and focusing on self-paced attainment of 
competencies in a variety of subject areas rather than the 
accrual of credit hours.
    Mr. Chairman, with the federal government committing $140 
billion a year in loan and grant dollars to fund students 
working toward a degree, states and institutions need to do 
much more. Too many students work hard to reach college only to 
find out that they are unprepared and cannot enroll in college-
level coursework.
    They started at community college to avoid the burdensome 
debt, only to find out their credits will not transfer to a 
chosen 4-year college and they need to repeat courses. They are 
forced to take classes in subject areas they have already 
mastered, in which they have real-world experience. We need to 
eliminate these barriers to completion and empower students to 
complete their degrees and enter the workforce.
    And thank you again for holding this hearing. I think it is 
very timely.
    [The statement of Mr. Miller follows:]

  Prepared Statement of Hon. George Miller, Senior Democratic Member, 
                Committee on Education and the Workforce

    Good morning, Chairman Kline. Thank you for holding this hearing on 
meeting the needs of contemporary students.
    By 2018, we know that our economy will need 22 million new workers 
with college degrees-- and that that we will fall short of that need by 
3 million people.
    To hit those goals, we need to recognize that many of today's 
students are very different from the students for whom the Higher 
Education Act was created.
    More than one-third of today's college students are over age 25. 
The average age of a community college student is 29, and two thirds of 
community college students attend part-time.
    Students rely on diverse ways of learning, like online education, 
which served over 5 million students in 2012 alone. Institutions are 
also exploring new models of education, like competency-based 
education.
    But students face substantial barriers to completing their degrees 
and graduating as they move through the higher education system.
    To ensure that we are preparing sufficient college graduates to 
meet workforce demands, we need to eliminate the barriers that prevent 
too many students from earning a degree and securing their place in the 
middle class.
    Time and again I hear that students are wasting time and money as 
they try to transfer between institutions.
    More than one-third of college students switch schools prior to 
receiving a degree, and many transfer more than once.
    Unfortunately, too many students find themselves losing credits and 
unnecessarily repeating classes when they transfer. These points of 
friction increase as more students utilize increasingly different modes 
and pathways toward graduation, such as online education and 
credentialing of prior learning.
    And that friction wastes money for taxpayers and students, as well 
as students' time.
    It also makes students much less likely to complete their degree 
and graduate. This is unacceptable.
    Right now, nearly 15 percent of students transferring from 
community colleges lose 90 percent or more of their credits, which 
essentially means that they need to start over.
    Under a bill I introduced yesterday, with Representatives Hinojosa, 
Polis, and Fudge, an in-state student attending a public two-year 
college would be able to ensure that their associate degree transfers 
to an in-state public four-year college. They would receive junior 
status at the four-year school and save nearly $18,000 compared to a 
student who is forced to start over.
    That would make a big dent in their college costs.
    Around the country, at least 36 states have already passed 
legislation to establish clear transfer pathways and articulation 
agreements.
    So the ``Transferring Credits for College Completion Act of 2014'' 
draws on those state policies.
    The bill provides a framework for states to establish statewide 
transfer arrangements that will save students time and money, 
including:
    * A 30-credit minimum general education core of classes shared 
across all two- and four-year public institutions, with common course 
numbering, and;
    * A guarantee that an associate's degree fulfills the first two 
years of a related program at any public four-year institution within 
the state, allowing community college students to transfer with junior 
standing.
    These kinds of policies have a proven track record of raising 
graduation rates and lowering costs by increasing transparency and 
creating guaranteed pathways to graduation.
    I hope the committee will consider them.
    In addition, we'll hear today that too many students are starting 
college behind and are not given the support they need to catch up and 
complete their degrees.
    Remediation presents a substantial hurdle to college completion, 
particularly for low-income students, resulting in high drop-out and 
failure rates.
    Across the country, colleges are beginning to identify new best 
practices to increase the success rate of remedial education.
    Rather than mandating enrollment in non-credit-bearing remedial 
classes as a ``pre-requisite'' to college-level coursework, some 
institutions are experimenting with a ``co-requisite'' model, in which 
students enroll in college-level courses but simultaneously receive 
extra instruction and support.
    Competency-Based Education, or CBE, offers another avenue to 
prevent wasted time and money by focusing on the self-paced attainment 
of competencies in a variety of subject areas, rather than the accrual 
of credit hours.
    Mr. Chairman, with the federal government committing $140 billion a 
year in loan and grant dollars to fund students working toward a 
degree, states and institutions need to do much more.
    Too many students work hard to reach college only to find that they 
are unprepared and cannot enroll in college-level coursework.
    They start at community colleges to avoid burdensome debt, only to 
find that their credits will not transfer to their chosen four-year 
college and they need to repeat courses. They are forced to take 
classes in subject areas they have already mastered and in which they 
have real-world experience.
    We need to eliminate these barriers to completion and empower 
students to complete their degrees and enter the workforce.
    Thank you, Mr. Chairman. I yield back.
                                 ______
                                 
    Chairman Kline. I thank the gentleman.
    Pursuant to committee rule 7(c), all committee members will 
be permitted to submit written statements to be included in the 
permanent hearing record. And without objection, the hearing 
record will remain open for 14 days to allow statements, 
questions for the record, and other extraneous material 
referenced during the hearing to be submitted in the official 
hearing record.
    It is now my pleasure to introduce our distinguished panel 
of witnesses.
    And I am going to start by recognizing the gentleman from 
New Jersey, Mr. Holt, to introduce our first witness.
    Mr. Holt. Thank you, Mr. Chairman.
    And I am delighted to introduce my friend, Dr. George 
Pruitt, who is president of Thomas Edison State College, which 
was founded in 1972 as a state institution, not a private or 
for-profit institution. It is the second-largest university, 
public or private, in New Jersey, and Dr. Pruitt has been 
president of Thomas Edison for most of that time.
    He serves on the board of directors of the American Council 
of Education, has advised numerous secretaries of education 
under various presidents of both parties. He serves as vice 
chair of the Commission on Higher Education Attainment, which 
focuses on retention and some of the things that we are talking 
about today. And Dr. Pruitt also chairs the board of the Middle 
States Commission of Higher Education, which is the 
accreditation organization for mid-Atlantic states and Puerto 
Rico.
    With regard to Thomas Edison State College--and maybe I can 
save the president some of his testimony time by pointing out, 
it has been named one of the 50 best colleges for 
nontraditional students. I think that is weak praise; it 
deserves much more than ``one of 50 fine schools.''
    Forbes Magazine called it one of the top 20 universities in 
the nation of the use of technology. The New York Times has 
called Thomas Edison one of the brighter stars in higher 
education.
    Whether you call it--the kind of education they provide 
there--specialized or nontraditional or relevant or adult or 
mid-career, it is a very important national model that we would 
do well to look at carefully. And it has thrived under Dr. 
Pruitt's leadership, with his vision, and I am sure we will get 
insight from Dr. Pruitt today.
    Thank you.
    Chairman Kline. I thank the gentleman.
    If he could have talked for four or five more minutes, you 
would have been number one without any doubt.
    [Laughter.]
    Let me resume today's introductions.
    Mr. Kevin Gilligan serves as chairman and CEO of Capella 
Education Company in Minneapolis, Minnesota.
    And we are delighted that you are here today, and I know 
you were delighted to leave Minnesota in the same snowstorm 
that was prevailing when I was there.
    Prior to joining Capella, Mr. Gilligan held leadership 
roles at United Subcontractors, Inc., and Honeywell 
International.
    Mr. David Moldoff founded AcademyOne, Inc., in 2005 and 
serves as its chief executive officer. Over the past four 
decades he has built a reputation as an industry expert in 
software architecture and systems integration across the 
education sector.
    Dr. Joann Boughman serves as the senior vice chancellor for 
academic affairs, a position she has held since 2012.
    I want to recognize Mr. Messer to introduce our next 
witness.
    Mr. Messer. Yes. This is a tremendous privilege. Thank you, 
Mr. Chairman. I want to first read his introduction here and 
then tell you what I know about Stan.
    Mr. Stan Jones is the president and founder of Complete 
College America. He has been involved in higher education for 
three decades, serving as Indiana's commissioner of higher 
education and as a state legislator in Indiana.
    Stan and I got to know each other working on dropout 
policies and legislation in Indiana that, once we were able to 
get it passed in a very bipartisan way, has created a set of 
tools on those issues that have improved Indiana's dropout rate 
from 70 percent to almost 90 percent now over a period of six 
or seven years. And I would just want to say about Stan Jones 
is--I don't want to undercut your bona fides here, but there is 
nobody I know who has a bigger heart for kids; there is nobody 
I know who has spent more time working on these issues, trying 
to truly understand what we can do to create better 
opportunities for young people in America; and there is nobody 
I know more willing to set party and politics aside and find 
the true common ground that can make a difference for young 
people.
    And it is my pleasure to introduce Stan to the committee 
today.
    Thank you.
    Chairman Kline. I thank the gentleman.
    I want to back up just a second. I quickly pointed out that 
Dr. Boughman serves as a senior vice chancellor for academic 
affairs and neglected to mention that is at the University of 
Maryland, so sorry. Apologize.
    I would now like to recognize, I guess, Dr. Price to 
introduce our final witness.
    Mr. Price. Thank you, Mr. Chairman. There is a lot of pride 
on the panel up here today introducing folks from home, and I 
am so proud to be able to have the opportunity to introduce Dr. 
Brooks Keel, who is the 12th president of Georgia Southern 
University.
    Georgia Southern is an institution that serves more than 
20,000 undergraduate and graduate students, offering 115 degree 
programs through eight colleges, including bachelor's, 
master's, and doctoral programs. Dr. Keel has been president at 
Georgia Southern for a little over four years. He comes to 
Georgia Southern by way of LSU and Florida State, and we 
forgive him for that.
    He is a native Georgian, receiving his Ph.D. in 
reproductive endocrinology from the Medical College of Georgia. 
His illustrious academic career includes work at the University 
of Texas; University of South Dakota; and the University of 
Kansas, Wichita, where he established the Women's Research 
Institute and Reproductive Medicine Laboratories, becoming the 
first recipient of the Daniel Roberts Distinguished 
Professorship and Endowed Chair at U.K. He carried out all of 
those remarkable accomplishments always focusing on cutting-
edge research in biomedical and biological sciences.
    Dr. Keel has served with distinction in national 
professional organizations and societies. He has authored 65 
peer-reviewed scientific publications, 19 book chapters, and 
edited four books. And I will tell you that there are few 
individuals who have the breadth of experience in higher 
education, and in his current position, the real-life success 
of leading an institution that daily meets the needs of a 
diverse and exciting student body group.
    So Georgia is very proud of Dr. Keel, and we are honored to 
share him and his experience with the committee today.
    Chairman Kline. I thank the gentleman for the introduction.
    I welcome all the witnesses.
    We could get in a battle up here very quickly, as you see. 
I am not sure about this policy of allowing members to 
introduce witnesses. We would all be number one in something 
out there pretty quickly.
    Before I--
    Mr. Miller. [Off mike.]
    Chairman Kline. I knew it. I just knew it.
    Before I recognize each of you to provide your testimony, 
let me just remind you of the lighting system. You see the 
lights in front of you.
    You will each have five minutes to present your testimony. 
When you begin the light will turn green; after four minutes 
the light will turn yellow--start looking at wrapping up your 
testimony, if you would, please; and when it turns red, please 
wrap up as expeditiously as you can.
    All of your written testimony will be included in the 
record.
    After you have all testified, each of the members on the 
committee will be allotted five minutes to ask questions. I 
will do my best to hold my colleagues to their five minutes so 
everybody has a chance to participate.
    I would now like to recognize Dr. Pruitt for five minutes. 
Sir?

  STATEMENT OF DR. GEORGE A. PRUITT, PRESIDENT, THOMAS EDISON 
                   STATE COLLEGE, TRENTON, NJ

    Mr. Pruitt. Thank you, Mr. Chairman. With your permission I 
would like to thank my friend, Congressman Holt, for his kind 
and generous introduction.
    We certainly want to--we will miss you and your service to 
this committee, to the Congress, and to the nation. I wish you 
well over the next phase of your career, and I am glad you will 
still be in the neighborhood.
    Thomas Edison State College is one of 11 senior public 
colleges and universities in New Jersey. We are a specialized 
institution. We were founded in 1972 with the mission of 
providing flexible, high-quality collegiate learning 
opportunities for self-directed adults.
    We are not a classroom-based college. The average age of 
our student body is approximately 40 and, while there are 
exceptions, we do not normally admit students under the age of 
21.
    We begin a new semester every month. Our students come to 
us when they are ready and they graduate when they have 
completed all degree requirements. They satisfy our degree 
requirements by choosing from a menu of high-quality credit-
earning options that include independent study, distance 
education, prior learning assessment, transferring credit 
earned at other colleges, and courses taken through the 
military and with other non-collegiate providers.
    With an enrollment in excess of 20,000 students, we are the 
second-largest college or university in New Jersey. While the 
majority of our students are in-state, the remainder can be 
found in every state in the union and scores of countries 
around the world. We are a military-friendly institution that 
enrolls more veterans than the rest of the senior public 
institutions in New Jersey combined.
    Our total annual in-state tuition is $5,700, which makes us 
one of the most affordable senior public colleges or 
universities in the country.
    From our very beginning as an innovative, nontraditional 
college, we have been obsessive about quality. We are 
constantly looking for objective third-party confirmation of 
the quality of the work we do.
    For example, for two out of the last three years our 
undergraduates had the highest pass rate on the CPA exam of any 
college or university in the state. Graduates from our school 
of nursing, one of the state's largest, perform in the top tier 
when compared to their peers on the state board exams.
    We believe that as an exemplar of innovation, quality, and 
affordability. We, along with some of our public sector peers, 
have pioneered strategies that many other institutions are now 
emulating. I believe that this is a good thing.
    However, I must advise you that the biggest impediment we 
face in adapting higher education to the contemporary needs of 
our nation is the current regulatory culture of the Department 
of Education. During my 31-year presidency, I have served in an 
advisory capacity to five secretaries of education, under three 
Presidents of both parties, and I have never before seen a 
predisposition for overreaching, intrusive, and sometimes 
destructive use of regulatory authority.
    Such initiatives as credit-hour definition, state 
authorization, and the proposed federal ratings system, while 
well-intentioned, are ill-conceived and actually harmful. They 
stifle innovation, undermine sound academic judgment, and drive 
up cost.
    We need a regulatory framework that supports accountability 
and innovation. However, what we have now supports compliance 
over quality, conformity over diversity, and attempts to 
federalize and bureaucratize judgments that should be left to 
the academy, the accreditors, and the states.
    It is a culture that assumes that higher education is the 
exclusive purview of 18-to 22-year-olds going to college full 
time. But this has not been true for a generation.
    The majority of college students today are over 25 and 
studying part time. The federal IPEDS system only counts first-
time, full-time freshman, treats transfer students as dropouts, 
and excludes 40 percent--40 percent of the students enrolled in 
colleges and about 100 percent of the students enrolled at 
Thomas Edison.
    It is dangerous to rely on data from this system to make 
policy judgments. I would certainly acknowledge that there have 
been abuses around the margins, but I would urge you not to 
impose remedies that inflict more harm than the maladies they 
are attempting to cure.
    My best advice to you collectively and individually is that 
when you return to your districts, meet with the presidents of 
your colleges and universities and get their counsel about the 
issues that concern you. I think that you will find that we all 
share the same objectives, but right now we are headed in the 
wrong direction.
    Thank you.
    [The statement of Dr. Pruitt follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Kline. Thank you very much, Dr. Pruitt.
    Mr. Gilligan, you are recognized for five minutes.

  STATEMENT OF MR. KEVIN GILLIGAN, CHAIRMAN AND CEO, CAPELLA 
               EDUCATION COMPANY, MINNEAPOLIS, MN

    Mr. Gilligan. Thank you, Mr. Chairman, Ranking Member 
Miller, and distinguished members of the committee.
    Thank you.
    As the chairman indicated, my name is Kevin Gilligan and I 
am the chairman and CEO of Capella Education Company. Our 
company is comprised of several parts, including our most 
significant and well-known entity, Capella University, which 
began 20 years ago with a mission to help adults pursue a 
master's or doctoral degree while working full time and 
pursuing a career; Sophia Learning, which provides low-cost 
pathways to general education credits; and an employer 
solutions business, which partners with large-scale employers 
to create online learning solutions.
    Thank you for having this hearing today. I believe the 
topic we are here to discuss--keeping college in reach for 
contemporary students--is a national imperative. American 
competitiveness is directly linked to our ability to make 
higher education more affordable, deliver increased value 
better aligned to workforce needs and opportunities, and 
broadly increase educational opportunity. The path to 
addressing this national imperative is through innovation.
    Innovation has always been at the core of Capella's history 
and our contribution to higher education. We were at the 
vanguard of online learning and for the last decade we have 
been a nationally recognized leader in competency-based 
education. This expertise in competency-based education enabled 
us last year to become the first institution in America 
approved by the Department of Education to offer financial aid-
eligible bachelor's and master-level degrees based on the 
direct assessment of learning rather than the traditional 
model, built around the time-based credit hour.
    It is this latest innovation that I have been invited to 
address here today.
    The average Capella University student, a 40-year-old 
female, is in the middle of her career and in many ways is the 
face of the contemporary student. The innovation of a degree 
based on the direct assessment of learning can be a uniquely 
good fit for her.
    In some cases adults bring real-world experience that they 
can apply to move more quickly through a degree program. The 
direct assessment model allows institutions to be more flexible 
in the delivery of learning.
    Direct assessment degrees are not a panacea or a perfect 
fit for every student, and it will not replace the credit hour-
based system of higher education. However, earning degrees 
based on the direct assessment of learning rather than the 
traditional time-based model has the potential to dramatically 
increase flexibility for students, significantly reduce the 
cost of a degree, speed time to degree completion, and increase 
access for working adult populations that are not currently 
served by today's higher education model.
    In my written testimony I have provided a deeper 
explanation of how our competency-based model works and how it 
has enabled us to offer direct assessment degrees through a 
program we call FlexPath. I have also provided some thoughts on 
how federal policy can better support this innovation by 
allowing us to offer hybrid programs and decouple the credit 
hour from federal financial aid. I look forward to discussing 
it in more detail with you here today.
    Let me close, Mr. Chairman, by thanking you and 
Representative Miller for the opportunity to come here today 
and tell our story. Thank you for your national leadership and 
commitment to strengthening American education and 
competitiveness.
    And finally, let me say I am deeply proud to lead such a 
mission-driven organization. It is an honor for me to represent 
Capella's faculty and staff, who believe in and are committed 
to the innovation of competency-based learning. And I am 
equally proud of the service we provide to our adult graduates 
and learners who represent the great resource that exists in 
America's workforce.
    I look forward to being part of the discussion and 
answering your questions around federal policy that enhances 
this important innovation. Thank you.
    [The statement of Mr. Gilligan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Kline. Thank you.
    Mr. Moldoff, you are recognized.

STATEMENT OF MR. DAVID K. MOLDOFF, CEO AND FOUNDER, ACADEMYONE, 
                     INC., WEST CHESTER, PA

    Mr. Moldoff. Thank you, Chairman Kline, Ranking Member 
Miller, and members of the committee. My name is David Moldoff 
and I am CEO of AcademyOne, a technology consulting company 
located in West Chester, Pennsylvania. And thank you for 
inviting me to testify.
    AcademyOne's focus is addressing the implications of 
student mobility, academic credit portability, and prior 
learning recognition. The company has developed a suite of 
navigational tools that assist states and institutions in 
addressing the diverse patterns students pursue as they follow 
their aspirations.
    For over 35 years I have led teams in creating, 
implementing, and supporting student information systems for 
thousands of colleges and universities. I directed this work as 
a senior executive of several technology companies, including 
the ones I have started.
    Back in 2000 the standalone systems I helped design, 
develop, and deploy were slowly impeding degree completion as 
higher education institutions adjusted to the growth of the 
nontraditional programs. Traditional students progressing 
through a single college or university in four years was the 
exception and no longer the norm. ``Alma mater'' was being 
replaced with ``I am mobile.''
    This fueled my desire to launch AcademyOne in 2005 to 
address the implications of college transfer and prior learning 
recognition to begin with. We assembled the first national 
course atlas of 3.5 million courses and indexed millions of 
course equivalencies. We also indexed about 20,000 articulation 
agreements, which were treasure maps, promising gold at the end 
of the hunt. I learned most were not followed to completion.
    Today over 1,200 institutional profiles are summarized on 
AcademyOne's national website, called collegetransfer.net. They 
are viewed by millions of students and parents each year 
seeking the answer to the question, ``Will my credits 
transfer?''
    Economics, and in some cases state legislation, have 
resulted in an increase in the number of articulation 
agreements and course equivalencies published. This is an 
evidence that the landscape has changed and institutions have 
responded to the significant challenge of student mobility.
    I estimate that our federal agencies, and states, and 
industry partnerships, and foundations, and institutions have 
invested well over $2 billion addressing transfer articulation 
agreements since 2010.
    Most of us remember what it is like trying to find our way 
on roads we never traveled before. My wife would suggest I stop 
and ask someone for directions instead of fumbling with paper 
maps. Some of us have a sense of direction. I don't; I am 
directionally challenged.
    GPS technology has addressed travel challenges for people 
like me. Now I can easily navigate roads as I know I want to--
where I want to go. This solution took years to evolve, though. 
GPS technology was conceived from the U.S. government's launch 
of satellites.
    In essence, AcademyOne has developed a GPS for students and 
institutions.
    AcademyOne pioneered the automation of transfer maps. 
Thousands of maps every month are generated on behalf of 
participating institutions based on the academic rules that 
govern how institutions accept learning outside of their own 
classrooms.
    Pennsylvania, South Carolina, Tennessee, Utah, Texas, 
Delaware, Florida are just among some of the states employing 
AcademyOne's technology to serve statewide initiatives instead 
of home-growing their own technology. For example, Pennsylvania 
uses collegetransfer.net for several initiatives, including 
managing the Department of Education's statewide transfer 
framework to guarantee transfer of targeted courses to any of 
the majors if students are attending participating 
institutions.
    Another is through the state's Bureau of Career Technical 
Education, funded by the Perkins Act, to prepare high school 
students for the high-priority 21st century occupations. 
Students Occupationally and Academically Ready Project, SOAR, 
provides online articulation agreements between the state's 
popular high school vocational programs and postsecondary 
institutions.
    And Tennessee is using our software to build a statewide 
reverse transfer system to determine eligibility of students 
pursuing their undergraduate degree and attending a 4-year 
institution that transferred from the in-state community 
college but never earned their associate's degree.
    I have included additional state summary briefs in my 
written testimony.
    The state-based web portals and apps AcademyOne powers 
publishes informational resources for students and institutions 
to assist in the contemporary learner as they go step-by-step 
through the guidance and saves them time and effort.
    It has not been easy to overcome the institutional 
bureaucracy. In some institutions, they will have to wait 
months after enrolling to learn what courses they have 
previously taken will be accepted and applied to their degrees. 
Or they might learn that the institution denied transfer credit 
because courses were differentiated subjectively rather than 
validating learning outcomes.
    Students can continue to experience transfer shock when 
prior learning, initially accepted based upon general course 
descriptions, turns out to be nontransferable to the major 
after faculty review.
    On average, a transfer student does lose more than a 
semester of credits by the time they graduate. This is what I 
called a transfer tax and it adds about 10 percent to the cost 
of the undergraduate degree. Furthermore, financial aid and 
loans are stressed by increased time to degree completion.
    Education is diverse and decentralized. Our sector is not 
monopolized by a few players. There are thousands of 
institutions, each focused on their uniqueness.
    Like roads, we have local, state, and interstate. Just like 
the landscape along the road is unique, so are our 
institutions.
    There are numerous challenges facing our nation that can be 
addressed with GPS-like technology that can replace the 
treasure maps with prescriptive directions, minimizing the 
friction of college completion. I have outlined some of these 
steps in my written testimony.
    AcademyOne's success with statewide initiatives proves that 
we can bridge institutional information systems.
    I want to thank the Chairman Kline and full committee for 
the opportunity to testify, and I am available to answer 
questions.
    [The statement of Mr. Moldoff follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        
    Chairman Kline. Thank you, sir.
    Dr. Boughman.

STATEMENT OF DR. JOANN A. BOUGHMAN, SENIOR VICE CHANCELLOR FOR 
  ACADEMIC AFFAIRS, UNIVERSITY SYSTEM OF MARYLAND, ADELPHI, MD

    Ms. Boughman. Thank you very much, Chairman Kline and 
members of the committee. I am Joann Boughman, senior vice 
chancellor for the University System of Maryland.
    Others here are addressing some of the modes of delivery 
and assessment that the University System of Maryland 
institutions are working on to enhance, with our University of 
Maryland University College leading the way in many of these. 
But I would like to spend my few minutes talking about the 
needs of the contemporary student that transfers.
    Transfer students account for two of every three students 
coming into the 12 institutions in the University System of 
Maryland--this year well over 20,000 of them, half of whom come 
from Maryland community colleges. Community college transfers 
have increased 25 percent over the last five years.
    Over 70 percent of these enrolled full time in our 
institutions, and of those, more than 80 percent matriculated 
at sophomore status or above; 66 percent of those that enrolled 
graduated within 4 years, a rate comparable to those freshmen 
6-year graduation rates.
    And while statistics are compelling, I would like to 
mention a few of our lessons learned, which I think are the 
most important.
    Leadership and partnerships are critical. Each higher 
education segment, from community colleges, public four-year 
universities, and the private colleges and universities, has 
worked hard on the development of meaningful transfer and 
articulation policies and processes.
    Maryland is a relatively small state, with just under six 
million people, and we have the luxury of conducting a lot of 
face-to-face conversations among our institutions through the 
active P-20 Council and the office of Governor Martin O'Malley, 
meetings of the community college presidents and our public 
institution presidents, and regular convening of the Segmental 
Advisory Council that includes the private institutions as 
well.
    In 2013 the state legislature passed the Maryland College 
Completion and Readiness Act of 2013. This law sets the bar 
very high with mandates for programmatic and process 
improvements, including: statewide transfer agreement that at 
least 60 credits of an Associate of Art or Associate of Science 
degree transfers to our four-year institution; reverse transfer 
of at least 30 credits back toward the A.A. degree; scholarship 
incentives for students to complete their associate's degree 
before coming to our four-year institutions; capping of degrees 
at 60 credits for an associate's degree and 120 credits for a 
bachelor's degree; implementation of pathway systems and degree 
plans at all institution; and enhancement of our online 
articulation system, ARTSYS.
    ARTSYS is an online portal that provides comprehensive 
information about articulation across all Maryland 
postsecondary institutions. Course equivalencies are detailed 
so anyone can see if any one course will transfer from one to 
any other institution.
    Entire transcripts can be evaluated in real time online so 
that one knows exactly what courses will transfer with credit. 
Recommended transfer programs are described in detail so a 
student may plan ahead and find the most robust and efficient 
pathway to both an associate's and a full four-year degree.
    Continuous updating and refining of ARTSYS requires 
substantial faculty input because it is the faculty that assess 
whether any one course should transfer from one institution to 
another, and that is an intensive process. But in fact, the 
articulation system, worked in this way, does negate the need 
for debate about common course numbering, per se.
    Current Maryland regulations guarantee the transfer of 30 
to 36 credits of general education credit from community 
college to 4-year institutions, but the recent legislation 
requires that we transfer 60 credits from the associate's 
degree to the bachelor's degree. We have addressed challenging 
specific areas of transfer directly through statewide 
articulation agreements. Faculty have been convened to develop 
clear pathways for an Associate of Arts in Teaching, Associate 
of Science in Engineering, and the R.N. to BSN pathway.
    Now students can move absolutely smoothly from our 
community colleges to our four-year institutions in all of 
these areas without swirling or meandering in non-degree-
related courses or otherwise accumulating extraneous credits. 
In fact, students transferring from our community college with 
60 credits or more graduate from our USM institutions with an 
average of 122.8 credits. That is less than one full course 
above the 120 in a bachelor's degree.
    Most institutions identify one or very few primary feeder 
colleges. They create specific agreements and programs that 
ensure smooth transfer of students from one to another.
    While it is essential that credits transfer, it has become 
obvious to us that successful matriculation through higher 
education also requires investment in student services, 
activities, and cultural engagements by institutions. Support 
of students across the full spectrum of higher ed and the 
spaces in between will lead to successful retention and 
completion for students challenged by the cost of higher 
education and other competing life priorities.
    Look forward to answering your questions and engaging in 
the conversation. Thank you very much.
    [The statement of Dr. Boughman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Kline. Thank you.
    Mr. Jones, you are recognized for five minutes.

   STATEMENT OF MR. STAN JONES, PRESIDENT, COMPLETE COLLEGE 
          AMERICA, INDIANAPOLIS, IN (DEMOCRAT WITNESS)

    Mr. Jones. Thank you, Mr. Chairman, Representative Miller, 
and members of the committee.
    I would like to start in a different place.
    During the worst of the recession we had record enrollment 
in our colleges across this country, so people were voting, 
saying, in essence, ``Our way to a better economic future is to 
go back to college.'' The freshman class, not only being 
bigger, it was more representative of America than it has ever 
been. There were more African Americans, more Hispanics, more 
first-generation students, more contemporary students than ever 
before. And certainly we should be proud of this record 
enrollment in terms of access.
    But we also have to ask the question, what happens to these 
students after they start? And if we look at the spring 
graduation day, who is there? At a community college, two-
thirds of those that start have dropped out; if we look at 4-
year colleges, especially the non-flagships, we have lost half 
of those students.
    And so for many of them those dreams are not realized. For 
the transfer students that Representative Miller spoke of, one-
third of community college students transfer. One-third of 
those graduate. So 11 percent of those students that started at 
a community college intending to get a bachelor's degree are 
successful.
    We also know that, unfortunately, far too many of these 
students start out their college career in remediation. It is 
overwhelming.
    At community colleges 60 percent of students start in 
remediation, and in some cities like D.C., 90 percent; Chicago, 
90 percent; Philadelphia, 80 percent started remedial courses. 
It is true at many of the 4-year, open-access institutions, as 
well.
    We also know that when you start in remediation, 
immediately your chances drop by 50 percent as to whether you 
are going to graduate. Only 10 percent of those starting in 
remediation at a community college ever get a degree or 
certificate of any kind.
    And one of the, I guess, more profound statistics is that 
70 percent of those that are--in community colleges--referred 
to remedial math, within two years don't even attempt a regular 
college math class, and otherwise they don't even get to go.
    Many, many students start in remedial class, that is their 
first college experience, that is their last. They didn't like 
math in high school, they find themselves in remedial math.
    We also know why remediation doesn't work, and it is 
because of attrition. Some students are placed in three levels 
down of mathematics--fractions and decimals. Only one percent 
of those students ever get a degree or certificate of any kind. 
Some students spend a year or even two years taking remedial 
courses. They never get degrees.
    There is a different way to think about this, and that is 
think about remediation not as a prerequisite but as a 
corequisite--not something you have to do before you start, but 
something that you do when you start, more time on task. It can 
be as simple as taking four class hours rather than three, 
staying after class 45 minutes every class, having assigned 
tutoring two hours a week.
    And those practices have shown extraordinary results. Just 
to point to two: One is in Carnegie Mellon--I am sorry, not--
Carnegie Center for Advancement of Teaching and Learning at 30 
different colleges offer a statistics course and a quantitative 
reasoning course. Their success rate has gone from five percent 
to 55 percent in one year. In Indiana, my home state, across 
the state at statewide community college, their success rate in 
English has doubled from 25 to 50 percent, and math has gone 
from 10 percent to 50 percent.
    These strategies can work, and they can work in a big way.
    As Complete College America, our single focus is on college 
completion. We work with 34 states. Remediation is a part of 
what we do; we also work on other strategies like performance 
funding, like encouraging students to take 15 credit hours. 
There are more students taking 12 credit hours than taking 15 
as incoming freshmen, so those taking 12, they are already on 
the five-year plan before they even get started.
    So what role can Congress play? Two roles.
    One is, the federal government collects a lot of data in 
what is called IPEDS. You have not been collecting--the 
government has not been collecting graduation rates, for 
example, on these remedial students I spoke of; you do not 
collect graduation rates on Pell students, where we spend 
billions of dollars every year; we don't collect graduation 
rates on adult students, the contemporary students that we are 
talking about, or veterans. So we don't know those answers.
    So that is the first place, and I think that is a simple 
fix, but that would drive policy. The second place is as you 
look at HEA, consider incentives for students to take 15 hours, 
incentives to progress toward a timely degree, incentives to 
graduate.
    Thank you, Mr. Chairman.
    [The statement of Mr. Jones follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        
    Chairman Kline. Thank you.
    Dr. Keel, you are recognized.

 STATEMENT OF DR. BROOKS A. KEEL, PRESIDENT, GEORGIA SOUTHERN 
                   UNIVERSITY, STATESBORO, GA

    Mr. Keel. Thank you, Mr. Chairman. Good morning.
    Chairman Kline, Ranking Member Miller, and members of the 
committee, thank you for the opportunity to testify on the need 
for a workforce-grant university, preparing the 21st century 
workforce. I would like to also especially thank Congressman 
Price for his representation and support of higher education in 
the great state of Georgia.
    My name is Brooks Keel and I have the privilege of serving 
as the president of Georgia Southern University, located in the 
southeast Georgia city of Statesboro. It is my privilege to 
speak to you today on the role that our university plays in 
workforce development.
    Complete College Georgia, a statewide effort championed by 
Governor Nathan Deal, has estimated that 60 percent of jobs in 
Georgia will require at least some postsecondary credential by 
2020. Because of the future workforce demands of business 
coupled with the increasing awareness of the relationship 
between college education and job placement, universities must 
now focus not only on college completion--that is, graduation 
rates--but also on worker readiness--that is, job placement 
rates--of their students following graduations.
    While technical schools address a critical workforce need, 
many businesses are realizing that their employees now need a 
more in-depth, highly specialized skill set. These skills 
include a deeper working knowledge of the discipline, greater 
critical thinking ability, team-based problem solving 
experience, advanced communication skills, an appreciation for 
innovation and creativity, and an enhanced ability to translate 
advanced learning directly into practice. In many cases these 
competencies can only be realized through a four-year degree 
and are most often provided by comprehensive universities who 
are uniquely positioned to emphasize the importance of worker 
readiness in their curriculum.
    In order to meet the workforce needs of the 21st century, 
higher education must rethink its role in educating students. 
Perhaps it is time to extend the original tenets of the land-
grant university mission, created more than 150 years ago, by 
supporting the concept of a workforce-grant university.
    Georgia Southern is the perfect example of such a 
workforce-grant university. As Congressman Price mentioned, we 
currently enroll more than 20,500 students from all 159 Georgia 
counties, all 50 states, and more than 100 countries. But what 
makes us unique, though, is that across all fields our students 
are taught not only the theory of the discipline but also the 
practical aspects of how to apply the theory to a real-world 
work situation.
    Our students learn how to work in teams, how to think 
critically, and how to express themselves creatively. As an 
example, our engineering students spend more than twice the 
amount of physical laboratory time than most other engineering 
programs, directly applying knowledge gained during the lecture 
sessions. They are taught by faculty who have industry 
experience and who know what skills the industry is going to be 
looking for.
    We graduate work-ready generalist engineers who have the 
knowledge required to build as well as design and who are as 
comfortable out on the shop floor as they are behind a desk. 
Because of this practical experience, our engineering graduates 
know how to translate a computer design drawing into a product 
that can actually be machined efficiently and manufactured 
inexpensively.
    Industry itself plays an important role in promoting the 
workforce-grant university culture at Georgia Southern. We 
currently have 28 industry advisory boards, consisting of more 
than 380 industry business leaders, spanning the gamut from 
mechanical engineering to nursing to graphics communication 
management to forensic accounting. These external boards meet 
regularly with our deans and faculty, helping to create state-
of-the-art curricula and to design practical work training 
experience for our students.
    Through industry sponsored internships, and especially co-
ops, our students gain valuable work experience which helps the 
student decide if that industry is, indeed, the right career 
path; affords industry the opportunity to learn if the 
individual student is the right fit for that particular job; 
and reduces industry-specific on-the-job orientation, making 
our students even more work-ready. All of this significantly 
increases job satisfaction, reduces the quit rate, and aids in 
keeping these newly hired individuals employed in the state.
    We are actively exploring the concept of industry-
sponsored, forgivable worker-readiness education loans, awarded 
to students who participate in co-ops and subsequently commit 
to working with the sponsoring industry for a 1-to 3-year term 
following graduation. This will further reduce new employee 
turnover and increase the return on investment made by industry 
in such programs.
    Such assistance may also provide need-based scholarship 
opportunities for many of our financially challenged students. 
Forgivable loan programs aimed specifically at this challenge 
can have a profound impact on preparing a highly trained and 
diverse workforce.
    In conclusion, Georgia Southern University is an 
institution committed to applied research and learning through 
scholarship and service. We bring together education, research, 
and industry in ways that benefit the state of Georgia, our 
region, and our nation.
    The economic prosperity in this country depends heavily on 
job creation, and in the availability of a highly-skilled, 
educated, and trained workforce. If adequately supported, 
workforce-grant universities like Georgia Southern will play a 
significant role in developing this economy and in producing 
this workforce.
    There is a role for everyone, including industries, 
businesses, communities, and government, in making sure that 
the United States will have the workforce needed for the 21st 
century and beyond.
    Mr. Chairman, thank you again for the opportunity to share 
with you our thoughts on this important issue.
    [The statement of Dr. Keel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]     
        
    Chairman Kline. I thank you very much.
    I thank all the witnesses. This is probably the best I have 
ever seen for a panel this size in staying to the five-minute 
rule. Now if I can just get my colleagues to cooperate.
    It has been fascinating testimony. You are largely in 
violent agreement, which is really--a really nice thing to 
hear.
    Lots of innovation going on. We want to be very supportive 
of that.
    Mr. Jones mentioned IPEDS--Institutional Postsecondary 
Education Data System. I had to write that down to remember 
what the acronym was.
    Dr. Pruitt, since we have determined that you are number 
one or near number one here, I assume that the majority of your 
students graduate and go on. Is that correct?
    I know it is. That is a rhetorical question.
    So the real question is, your official graduation rate is 
sort of nonexistent, right, because we are living--we have got 
an incredible system where you have to be a first-time, full-
time freshman in order for this to count. Talk about the split 
between traditional, nontraditional, where we are today with 
contemporary, and where we were when these sorts of rules were 
written.
    So I want to ask you then, Dr. Pruitt, is there a way to 
improve upon the data collected through this IPEDS system 
without significantly increasing the reporting burden on 
institutions?
    Mr. Pruitt. Yes, Mr. Chairman. It is simply counting and 
tracking all of the people participating in the community.
    It only counts first-time, full-time freshman. I have 
20,000 students that, on average, transfer in 57 credits when 
they come to us. It doesn't count any of our students. Most 
adult students are totally excluded from the IPEDS rate.
    To give you an example, too, about the issue of even 
calculating graduation rates. In my written testimony I gave 
you an example about a student that came in--transferred-in 120 
credits, we evaluated the transcripts when the student 
graduated. Student was with us for 30 days.
    So, what is the graduation rate on that? Was it 30 days or 
was it the 25 years that the student was working, satisfying 
the credits to get the credit to satisfy the degree?
    We need data because we make decisions that assume data 
that is faulty. So when we look at IPEDS--I would challenge you 
to say that you--we don't really know what the current 
condition is of American students in higher education because 
we don't have good, comprehensive data that actually tells you 
pictures. So to legislate based on IPEDS is a problem because 
the data is inherently flawed.
    Chairman Kline. Thank you. I think we probably all on this 
panel up here would agree that you need good data, and we know 
that this system is flawed. And in fact, with the example of 
your very successful school and the rule it just becomes absurd 
to look at that.
    But we do want to be careful not to pile on more reporting 
requirements, because we have had testimony in this committee 
before where one of the witnesses brought in a stack about this 
big of three-ring binders that were just the table of contents 
for the federal regulations they have to report on.
    Mr. Gilligan, just sort of continuing on this, what we do--
discussion about what we do and what we, the federal 
government, federal policy requires, do you have some 
recommendations about things that we should avoid putting in 
federal law?
    Mr. Gilligan. Well, so we are an outcome-based institution 
and we believe strongly that institutions should be held 
accountable for their outcomes. We believe, though, that should 
apply to all institutions, and I think it is important that 
institutions are transparent about their outcomes.
    But as we indicated, the student population in the United 
States is very diverse and it takes diverse models to serve 
that population. And so I think we have to be careful as we 
establish requirements that we don't fall into the trap of a 
one-size-fits-all, because I think that can lead to unintended 
consequences. So I think it is important to acknowledge in our 
measurement system the diversity of the models and the 
diversity of the student populations we serve.
    Chairman Kline. Thank you.
    And then, Dr. Brooks, my time is sort of running out but I 
am interested to see that you have a whole pile of industry 
advisory boards--28 is the number, I think, out of your 
testimony. And so presumably you are interacting directly with 
these. Do you change your curriculum based on this? And if you 
do, does this happen every year or--I mean, what is the 
frequency of being able to upgrade your courses based on these 
advisory boards?
    Mr. Keel. Thank you, Mr. Chairman. That is a great 
question, and that is really the purpose of bringing in these 
advisory boards is to help us make sure that our curriculum is 
fresh, that it is actually providing these--these young people 
with the skill sets they are going to need when they graduate 
in many cases three or four years down the road.
    These advisory boards meet on a regular basis anywhere from 
monthly to quarterly. Our professors and the deans take input 
from these advisory boards and change their curriculum 
sometimes on the fly.
    We also have these advisory board members in many cases 
come to our classes and interact with our students so that our 
students can see firsthand and ask the industry leaders 
firsthand, what is it that they are going to be looking for? 
What is it like to work in your industry? What am I going to 
have to be when I graduate in order for you to be competitive 
in this market?
    So I think these advisory boards have been absolutely 
crucial in us having that type of state-of-the-art curriculum.
    Chairman Kline. Thank you. My time has expired.
    Mr. Miller?
    Mr. Miller. Thank you very much.
    I will go back to my basic point, which is American 
students and families are borrowing something around $140 
billion a year to go to school, and the question is, how can 
they best navigate that playing field? I would also think that 
the testimony here today suggests that playing field is rapidly 
changing, including competency-based education not just at 
Capella but I think at other universities now are looking at--
they have to do this--prior learning assessments.
    I know there is great controversy over these assessments 
and whether they are really trustworthy and what have you or 
not, but the fact of the matter is many people have come back 
from the wars in the Middle East with great competencies and 
they are not getting credit for that. We have to figure that 
out.
    A common word in much of your testimony is ``pathways.'' 
And so when I look at the problem of trying to--trying to get 
articulation agreements across old systems, you know, 30 units, 
60 units, 90 units, graduation, what have you, that has been 
hard enough. At least in my state it has been very difficult to 
do, and I commend those of you who have advanced far beyond 
where the state of California is in these agreements.
    But when I look at the new plans that the state--that our 
state college system is undertaking--state university system is 
undertaking, they are now including how do you--how are you 
going to measure the internships, how are you going to measure 
employment-based curriculums, how are you going to walk across 
these to get through those 60 units to get out of--get your 
A.A. degree, to get your--and I think that, you know, we have a 
fire and boat drill going here because we recognize the value 
of these alternatives to seat time, to credit hours and the 
rest of that, and I want to know how that is going to be done.
    I mean, I see the total reevaluation that is taking place 
in our state college system and it is very exciting, and I 
think it is very student-friendly and very welcoming and allows 
a lot of additional players to come in and deliver competencies 
and information and curriculums to that system. But that sounds 
like one that is going to have a lot of rejection within the 
traditional institution, and that is my concern.
    And, Mr. Jones, I appreciated everybody here is graduating 
all their students, but your statistics are just devastating. I 
don't care if we are just measuring first-time students. That 
is a hell of a lot of students, but if only 19 percent complete 
their degrees on time, that is money, that is time.
    When I went to school it didn't make any difference because 
it didn't cost you any money and you had a lot of time. I was 
young. But that is not today.
    So I just would like to know how you think we best navigate 
this. And I guess I would throw in the other one is, when I 
look at some of the MOOCs and the online courses I also think 
that helps us in the other direction, which is from the 
freshman year of college back into the high schools, in terms 
of preparation.
    Remediation just isn't hard to do; it is almost a killer of 
college completion. And yet I talk to universities that, you 
know, are looking to use the Khan Academy to help with basic 
math. They think that is a much more--role. I don't know if 
college professors are going to accept the Khan Academy, you 
know, in terms of whether they will accept in an articulation 
agreement, but those are the things, to me, that we have to 
sort out and we have to do it in a rapid fashion, opening up 
all of the opportunities that you are bringing to your students 
with the changes in these delivery formats.
    And I appreciate the comment, one from Capella and, Dr. 
Boughman, certainly from you, because Maryland has been a 
leader in this effort.
    And, Mr. Jones, if there is time you can still tell us how 
we get above 19 percent.
    Mr. Gilligan?
    Mr. Gilligan. Comment, sir?
    Mr. Miller. Yes.
    Mr. Gilligan. Yes. So I would say at Capella we share your 
passion for improving completion and improving affordability, 
and that is why we are so excited about the potential for 
competency-based learning and direct assessment.
    And maybe an example might be helpful, because the question 
of what is the standard? How do we ensure that the competencies 
meet an acceptable standard?
    So let's say we are talking about a nurse and this nurse 
might be responsible for using data and analytics to monitor 
patient care and improve patient outcomes. And let's say this 
nurse has 10 years of work experience doing that, and 
proficiency and mastery around that competency.
    In a direct assessment program--let's say that nurse 
decides to go get her master's degree. If that is a requirement 
of that program, and that requirement would be set by our 
faculty, then she would have the ability to demonstrate quickly 
her competency and move through that part of the--
    Mr. Miller. If the receiving institution is prepared to do 
that. Capella is set up to do that. Not every other institution 
is.
    Ms. Boughman?
    Ms. Boughman. That is true that traditionally they may not 
be, but I would assure you that in this day and age our 
universities are working much more toward gathering of data, 
assessment of outcomes, and assessment of capabilities rather 
than just the seat credit hours.
    One of the things that we do in Maryland is focus on the 
faculty getting together and actually talking about these 
things, and the professional programs are one of the drivers in 
this, that allow our faculty to understand and recognize the 
idea of competencies, such that moving from one program to 
another or one institution to another I think is going to 
become clearer and smoother as more data become available.
    We remind our folks that for years the traditional academy 
has been accepting A.P. credit from high school. In fact, to 
work on competency-based outcomes from other institutions and 
other mechanisms is not at all unlike that; it is a matter of 
sitting down and determining what those competencies must be 
and then incorporating them into the curriculum and documenting 
the achievement of those.
    Mr. Miller. Thank you.
    Chairman Kline. Thank you.
    Dr. Foxx?
    Ms. Foxx. Thank you, Mr. Chairman. I appreciate all of our 
panel members for being here today, and I think this is a very 
exciting panel that we are having to bring up issues we have 
talked about in several other hearings that we have had, and so 
I think this culmination, almost, of several other panels.
    Having served as an assistant dean at Appalachian State 
University many years ago, I had the experience of helping 
students get competency-based credit, get credit for transfer 
courses. I began an articulation program with our community 
colleges.
    So it is true that these things have been done for a long, 
long time on an individual basis, on individual campuses, by 
individual deans, by individual chairmen. So this is not a new 
concept. However, it is important that we spread this concept 
more widely to benefit students.
    And I want to commend the chairman for using the term 
``contemporary student,'' too. I love it that we have picked up 
on that term because I think it is really important that we do 
that.
    Dr. Pruitt, in your testimony you mention the destructive 
and intrusive regulatory culture of the current administration, 
and we have heard that from a lot of witnesses again at our 
hearings. Would you give us a couple of examples of how these 
program integrity regulations or the rating systems would 
negatively affect your students? We heard very eloquently from 
your introducer that Edison is doing a great job, but would you 
like to say a couple of things about how this would affect you?
    Mr. Pruitt. Yes. I would like to give two examples.
    The most egregious one and the biggest problem that I think 
we face is the state authorization rules. If you had a student 
from a university in your state come and to be an intern with 
you for the summer, and one student lived in Maryland, one 
student lived in the District, one student lived in Virginia, 
the institution that those students were taking courses in 
would have to be licensed by Maryland, the District, and 
Virginia.
    If you had a student that was at the University of 
Cincinnati but had an apartment across the river in Covington, 
Kentucky, and had to--was driving back to campus every day, 
commuting, but decided to take an online course, the University 
of Cincinnati would have to be licensed by the state of 
Kentucky. Western Governors University, I believe--and I think 
I am right--told me that for them to get licensed in all of the 
states that they were required to, it cost them over $1 
million. That is $1 million in tuition that is going to go up, 
and I challenge anyone to tell me what the value is from having 
a college or university that has a student sitting in a living 
room taking a course for that institution to be licensed by 
that state.
    I believe that states ought to have a close look at what 
goes on within their borders. That is certainly important to 
protect the public interest. But to define that--we had a 
recent court case where there was a university in Georgia that 
had a billboard on the highway in Tennessee going into Georgia 
and the state of Tennessee was suggesting that they had to be 
licensed because they had a billboard. They settled that, but 
just think about the cost of trying to get regulated in--all 
the colleges and universities trying to get licensed in all 50 
states.
    The credit-hour rule that ties things to seat time. I went 
to the University of Illinois and I took a 5-hour analytical 
course. I was in class for 15 hours, or two 5-hour labs and 
three lecture halls. According to that logic, the University of 
Illinois owes me eight credits. Well, of course they don't. It 
is the measure of stuff that is credit hour.
    The strategy comes to deploy how you satisfy the stuff so 
the seat time follows the stuff. This rule inverts that. You 
could have a good argument that the federal government should 
not be supplanting the judgment of faculties about how much a 
credit hour should work, but even if you lose that argument, 
the one they came up with was about the worst one that they 
could--you could find.
    So I could go on for others, but I know that time is 
precious.
    Ms. Foxx. Thank you. I appreciate that.
    Mr. Moldoff, I just want to make a comment about your GPS 
analogy. As a geographically challenged person, I really 
appreciate that. And I also think your comment about transfer 
tax is extremely important.
    End my question with Dr. Keel. Can you tell us if your 
placement rate--employment rate of your graduates has increased 
and are you getting very positive results from the employers?
    Mr. Keel. Yes, we are. And as you might imagine, collecting 
hard data on that is a very difficult task for all sorts of 
reasons that I am sure my colleagues could speak to, as well.
    I spoke with my engineering dean before I came here, as an 
example, and he has indicated to me he is not aware of any of 
his students at this point in time that have graduated that 
currently do not have a job or who are not in graduate school 
or we had just lost contact with. And it is, I think, because 
of this work-readiness approach that we are taking, especially 
in the engineering program that is the case. But that sort of 
approach is--we carry over to all the other disciplines, as 
well.
    And again, coming back to the question that the chairman 
asked, tying how you graduate these individuals to what 
industry is truly--industry and business is truly looking for I 
think is going to be a real key to making sure that these young 
people are employed once they graduate.
    Ms. Foxx. Thank you, Mr. Chairman.
    Chairman Kline. Gentlelady's time is expired.
    Ms. Fudge?
    Ms. Fudge. Thank you very much, Mr. Chairman.
    And thank you all for being here.
    Ms. Boughman, have you had the opportunity to track data 
regarding students who start in your system but then transfer 
to private or public schools outside of your system?
    Ms. Boughman. Those tracks are very difficult to obtain. 
Our articulation system within the state does include our 
private institutions, as well, and we do know about those 
students that come from out of state into our institutions. But 
to follow up on students who leave our institutions to other 
states is extremely difficult to track, just as the employment 
rates for our graduates are difficult.
    Ms. Fudge. Okay, thank you. Further, let me just ask you, 
we find it very common, especially in my part of the country in 
Ohio--and I am sure it happens every place--that students are 
graduating with both their high school diploma and, at the same 
time, an associate's degree from a community college, 
generally. How has this factored into the decisions that your 
system is making as it relates to programs such as your 2+2 
transfer scholarship and enrollment in traditional 4-year 
institutions?
    Ms. Boughman. The 2+2 program, once you have an associate's 
degree you have an associate's degree and then are eligible for 
any of the programs that would come into our 4-year 
institutions. And the combined high school and college work 
that you are talking about, either early college--we have 
several of these schools within our state. All of those are 
very active and all of those credits accumulate, just as any 
other credits would.
    It is one of the really important points about our state 
being so focused on the P-20 pipeline and not just higher 
education alone. We are working very closely with the K-12 
institutions to, in fact, streamline across the gap of high 
school to any higher education.
    Ms. Fudge. Thank you.
    Dr. Pruitt, you indicate that most of your students come or 
transfer into your institution with approximately 57 credits. 
Can you tell me what percentage of the total credits they have 
the 57 makes up?
    Mr. Pruitt. To graduate for a baccalaureate degree at 
Thomas Edison is 120 credits, so if they come in with 57 they 
are pretty much half--
    Ms. Fudge. No, I am saying if they--let's say, for 
instance, I am transferring and you are saying you take 57. I 
might have 100. Do you take all 100 or is 57 a percentage of 
the total credits I have?
    Mr. Pruitt. If they are college level, college relevant, 
and are relevant to the degree requirements of the institution, 
we accept all of them. There is no limit.
    We have, in fact, had graduates that have come in, 
transferred the entire thing, and gotten a degree in 30 days 
after we have evaluated their record.
    Ms. Fudge. Thank you.
    Dr. Keel, how does your university balance the need for 
workforce training and collegiate education to ensure that 
students can use the skills across different careers?
    Mr. Keel. I am sorry, across different--
    Ms. Fudge. Careers.
    Mr. Keel.--careers. Yes. Again, it is sort of the culture 
at our university to try to help these students not only 
receive a quality education but to be able to apply that 
education across the board. I mentioned engineering; that is 
the most obvious example.
    But we get the same input from business and other of our 
disciplines, as well. Arts, humanities, and the languages is 
another huge area for us that we feel fits into this sort of 
workforce-grant culture equally as well, for a variety of 
reasons. It helps these students obtain creative problem-
solving skills, to think critically, and have this innovative 
and creative spirit.
    But there are a lot of disciplines that our young people 
are going to be prepared for that come from the arts and 
humanities. As an example, the digital media, film, and video 
game industry, which is a huge area of growth in the state of 
Georgia, is a great example of how a person might have a career 
opportunity to go into that industry but have their degree in 
the arts and humanities field. That individual is equally as 
employable, we think, as someone who comes from engineering.
    So I think this workforce-ready approach not only can be, 
but should be, applied to all disciplines.
    Ms. Fudge. Thank you.
    Yes, go ahead--
    Ms. Boughman. Could I add something? Thank you very much.
    Every degree program at our 12 institutions is reviewed 
every six years in the University System of Maryland, and one 
of the things we look at for every new program that is being 
proposed and at every review is the--putting in place of an 
advisory board that includes people from the private sector, 
recognizing that this connection is ever more important in 
preparing students for the workforce.
    Ms. Fudge. Thank you.
    My time is running out. I just want to say that at some 
point I hope that we can find some way to really assess these 
kinds of programs. I know that you don't like collecting data 
and I know you don't like any of that, but at some point we 
have to assess these programs without using the traditional 
metrics that we have always used.
    So thank you, and I yield back, Mr. Chairman.
    Chairman Kline. I thank the gentlelady.
    Mr. Salmon?
    Mr. Salmon. Thank you very much.
    I am just curious if all of those of you on the panel are 
familiar with the gainful employment rule that is being 
proposed by the Department of Education. It has kind of gone 
through several different iterations, but I would like your 
thoughts on something I am about to say.
    We had a field hearing in Arizona, and all three of our 
state's institutions--higher learning institutions--Arizona 
State University, University of Arizona, and NAU--were present, 
and the question that was posed to them was if they were 
familiar with that rule, and if so, did they support the 
gainful employment rule being used for not-for-profit 
universities and public universities, as well. And across the 
board they said basically what is fit for the goose is fit for 
the gander. Students at all higher learning institutions have 
the same--they are all equally important and we should care for 
them equally so.
    And I am very interested in your thoughts. Would you 
support--if we adopt the gainful employment rule for for-profit 
universities, don't you think it would be fair to make it 
across the board for all universities and all higher learning 
institutions?
    I will start with you, Dr. Pruitt.
    Mr. Pruitt. The only response I would have, Congressman, is 
that I want you to be cautioned. There are certain institutions 
that exist to train people for jobs, and then there are many 
that don't. And I would caution about vocationalizing higher 
education.
    Twenty-seven percent of the people that have degrees are 
working in areas that relate to their undergraduate major; 73 
percent of us don't. It is true that high-capacity people 
outperform low-capacity people and higher education generates 
capacity.
    I worry about making an 18-year-old decide what he or she 
is going to do for the rest of their life. There are certain 
areas where it is appropriate, and if I am an institution that 
says, ``Come here, because if you come here you will get a job 
and you will get a job in these areas,'' it is valid and 
reasonable to know what the track record is and to provide that 
data back to the person who wants to come there.
    But when you start taking that concept and generalizing it 
to traditional higher education, or even proprietary higher 
education, I get a little worried about what it says to 
higher--says about what higher education is for.
    Mr. Salmon. Dr. Pruitt, I completely agree with you. I 
think it is a very, very slippery slope.
    I guess my point was not, ``Is it a good idea to enforce 
the rule,'' because I am not sure it is. I think it is one of 
those rules that may be a penny wise and a pound foolish. But 
if it is going to be instituted for for-profit universities 
then it--I think it is fair to say that it ought to be 
installed across the board and there ought to be transparency 
for public universities, as well.
    Mr. Keel, again, what are your thoughts?
    Mr. Keel. Yes, sir. So I agree with your contention. I 
think if we are going to have those measures, all institutions 
should be held accountable and should be transparent. And 
because gainful employment only speaks to the proprietary 
sector, it will take Congress acting in order to change that, 
so I would like to see this issue discussed as part of the 
reauthorization.
    Mr. Salmon. I am going to move on. I would love your other 
thoughts. Maybe you can submit them in writing.
    But the other question I have is that I have introduced a 
piece of legislation--it is a bipartisan piece of legislation 
called the Advancing Competency-Based Education Demonstration 
Project Act of 2013. I introduced that last September.
    I thank the chairman for his support of this legislation 
and his leadership on the Higher Education Reauthorization Act.
    My bill simply makes it simply easier for schools 
implementing a competency-based program to craft an education 
experience that would cater to the individual learning needs of 
the student. Let's break outside the box.
    Not enough kids are going on and getting their 
baccalaureate degrees, and the cost of education has gotten so 
out of touch with a lot of people, so shouldn't we be making it 
easier and not harder? And doesn't it make sense that using 
somebody's world experiences, life experiences, whether it is 
in the military, or nursing, or wherever that may be, isn't the 
end goal to make sure that they actually have a product that 
actually--you know, that means something in their life going 
forward?
    Would this kind of a policy be useful, Mr. Gilligan, to, 
you know, your institution? And would it ease the statutory 
regulatory friction around offering direct assessment programs?
    Mr. Gilligan. Yes, sir. So I am familiar with the bill and 
we support it. I think it would not only be good for Capella, 
but I think it would be good for any institution of higher 
education looking to develop competency-based direct assessment 
programs.
    There are still a lot of questions and issues to be figured 
out and there are statutory and regulatory barriers to be 
overcome, and we--at a demonstration project, we would create 
an environment where I think that institutions could be safely 
experimenting out of the box, at the same time safeguarding 
student interests.
    The other importance of a demonstration project is I think 
the data that would come out of that could help inform future 
policy, in particular with regard to the reauthorization. So we 
support your--
    Chairman Kline. The gentleman's time has expired.
    Ms. Bonamici?
    Ms. Bonamici. Thank you very much, Mr. Chairman. I am very 
glad we are having this hearing today. I have some personal 
experience in that I started my college education at a 
community college and then back before the days of online 
portals was still able to transfer as many credits as I needed 
to be able to complete a 4-year degree in 4 years.
    So this is a really important discussion that we are 
having. I think my experience helps me understand what students 
are going through.
    I was also proud to be in our state legislature when in 
Oregon we passed the Transfer Student Bill of Rights and 
Responsibilities.
    So I want to ask a series of questions.
    Mr. Jones, I am going to start with you. There was a 
suggestion here that we actually talk with colleges about these 
issues, and we have done that.
    And I wanted to address the Ability-to-Benefit program. I 
appreciate that the President's budget would take some steps to 
restore Pell Grant eligibility for some students without high 
school diplomas.
    Can you talk about whether enough is being done to help 
contemporary students returning from the workforce without high 
school diplomas across career pathways and postsecondary 
education?
    Mr. Jones. Well, if you look at the graduation rates for 
adults--returning adults--and most of these students are coming 
back as part-time students, the graduation rates are very, very 
low--about 15 percent, community college or 4-year college. And 
students that go part time all the time, which are a lot of 
these adults, they are less than 10 percent.
    And so for these returning adults, they really need to go 
into different kinds of programs that meet their needs--more 
certificate programs that have shorter-term objectives, more 
structured programs, and maybe programs that are more directed 
at the workforce. But if they come back to traditional 
universities and colleges, they won't be successful because the 
programs aren't designed for--
    Ms. Bonamici. So do you think we should reinstate the 
Ability-to-Benefit program?
    Mr. Jones. I am not knowledgeable about--enough about that. 
I will tell you that those students, or even the students that 
have the ability to benefit, most all of those students are put 
into remedial programs that are highly unsuccessful.
    Ms. Bonamici. Right.
    Mr. Jones. And so there, too, if you were to expand or go 
back and let people without a high school diploma, you still 
need to change the system or--
    Ms. Bonamici. Understood. Thank you.
    Dr. Keel, thank you so much for your discussion about 
internships. I have seen a lot of benefits to students from 
internships.
    Of course, many nonprofit organizations or government 
organizations have unpaid internships that create an equity 
issue for students. I actually have an Opportunities for 
Success Act to help level the playing field for Pell Grant-
eligible students.
    So have you found that internship opportunities tend to go 
to more fortunate students? And if so, does that create a 
barrier that should be overcome?
    Mr. Keel. No, that certainly is a great question, and I 
think your--you actually hit it right on the head. I don't 
think it is without any doubt that many of the internship 
programs that are offered not only at our institution but at 
other institutions tend to favor those students that have the 
financial wherewithal to be able to afford to do an internship, 
most especially if they are located away from their own home 
campus environment. I think the same can be said for co-ops, 
although co-ops typically tend to be with industry or the 
businesses that actually pay these students.
    I think that most businesses and industries today are 
beginning to realize that if the purpose is to provide a 
student with an experience that is going to be directly related 
to that individual becoming employed, then industry is going to 
be more willing to provide support for internships and co-ops.
    Ms. Bonamici. Exactly. Thank you very much.
    And I want to stay with you but also bring in Dr. Boughman 
and perhaps some others and follow up on the conversation about 
contemporary students--there was a discussion about avoiding 
noncredit classes and non-degree-related courses.
    Dr. Pruitt just made a great point about do not 
vocationalize higher education, and I have to agree that 
perhaps not every student enters college knowing what he or she 
wants to do, and I think about, you know, all the stories we 
hear about somebody who thinks they want to be an accountant 
but then they take an astronomy class and then they discover a 
passion for science. I have actually cofounded a STEAM caucus 
to make sure that the arts are integrated into the STEM 
disciplines.
    And, Dr. Keel, thank you for your comment about the 
importance for innovation.
    So can you talk a little bit about what happens with those 
students who don't know what they want to do when they enter? 
What services are provided to help guide them to get a well-
rounded education and find their passion?
    Dr. Boughman, we will start with you.
    Ms. Boughman. Thank you very much for that question. One of 
the things that has happened in Maryland with the development 
of these pathways and the emphasis on pathways and degree plans 
is that it has bolstered our advising system at the university. 
We look at advising in a very different way. We engage with the 
student in a very different way than we did five years ago.
    And it addresses exactly your point that a student can be 
put on a pathway toward a degree or an area of interest, but 
along the way they may be able to veer in another direction 
without losing certainly the general education credits and 
hopefully not credits that would, in fact, go toward their 
degree.
    Ms. Bonamici. Thank you. And unfortunately, my time is 
expired.
    I yield back. Thanks, Mr. Chairman.
    Chairman Kline. Indeed. The gentlelady's time has expired.
    Mrs. Brooks?
    Mrs. Brooks. Thank you, Mr. Chairman.
    And thank you all so very much for being here. This is a 
terrific panel and terrific discussion.
    I would like to talk a little bit and want to welcome a 
colleague from Indiana, Mr. Jones, to focus a little bit on 
remediation and ask you if you could explain a bit about 
Indiana's model. I am a Hoosier and actually served at Ivy Tech 
Community College, but I don't think we talk enough about 
remediation issues in all of our colleges and all of the 
programs, and I think it is a huge impediment, particularly for 
the contemporary student.
    In what was called the Indianapolis Economic Club, the 
president of Ivy Tech had everyone in the audience take the 
math test for college entry, and all business leaders who were 
present--and there were several hundred people--had an abysmal 
pass rate answering the pass rates--or answering the math 
questions that are on the exams. And now we are asking adults 
to come back, who maybe did poorly in math--probably did do 
poorly in math in high school or grade school--and to try to 
get into college-level math or college-level English.
    And I am curious first, if you could share what Indiana has 
done specifically in a fairly short period of time to increase 
remediation pass rates, but I am curious what your other 
institutions--because this is not an Indiana problem; this is a 
national problem that I don't think we focus on enough.
    Mr. Jones?
    Mr. Jones. So yes, all the tests--there have been studies 
that one-third to one-half of students are misplaced because of 
the testing, and so that is why large numbers--actually, tests 
keep them in remediation. They don't allow them into college 
campuses--classes.
    What Indiana has done, Ivy Tech has done--statewide 
scaling--they are one of seven states that are putting this new 
model, corequisite, where students are taking the courses with 
support rather than taking remedial courses before, and they 
are showing these huge success rates: math going from 10 
percent to 50 percent, English from 25 to 50 percent.
    The math issue that you raised, what Indiana has already--
also done and others are doing is that college algebra has been 
the de facto standard across the country. The only purpose for 
college algebra is calculus.
    If you are in tourism, if you are in psychology, you don't 
take calculus. And yet, all those students were being made to 
take college algebra. So a lot of colleges are rethinking this 
and putting students in statistics and quantitative reasoning 
that better match the programs that are in context.
    And then the last thing that Ivy Tech is doing statewide 
are these very prescriptive guided pathways so there is a clear 
path to graduation for many of these students.
    Mrs. Brooks. Thank you very much.
    I am curious to hear from some other institutions what you 
are doing with respect to remediation, because I think this is 
a national problem.
    Mr. Gilligan, how does Capella deal with it, and--
    Mr. Gilligan. Yes, thank you. So I will start by reminding 
you that Capella serves working adults. Our average-age student 
is 40 years old and most of our students come in at the 
graduate level.
    But we do have this challenge at the undergraduate level, 
and a typical undergraduate applicant is similar age, some 
college credits but never finished. And oftentimes they are a 
little bit rusty in terms of their academic skills.
    So we require those applicants to go through an assessment 
process to identify their risk factors. Sometimes the risk 
factors are academic readiness; sometimes there are other risk 
factors we identify.
    And what we are doing is using that data to create 
personalized on-boarding process for them, because our 
experience has been if learners are successful the first few 
quarters they will complete over time. Our greatest attrition 
is in the first four quarters, and we have seen some progress 
moving the needle through the use of those assessments and 
analytics in our course room.
    Mrs. Brooks. Dr. Keel, just curious what you are doing?
    Mr. Keel. Yes. Thank you. And I hope you won't be asking us 
to take that math test today.
    Georgia Southern is not--we do not offer remedial 
education. In fact, in our system we are not, basically not 
allowed to. That is the job, primarily, of the 2-year 
universities.
    But what we have done is to offer a program that we call 
the Eagle Incentive Program. Our minimum criteria for admission 
is an SAT of 1010. We have a number of students that have SATs 
in the 950 to 1010 range that apply for us.
    We offer them the opportunity to attend a semester in the 
summer at this Eagle Incentive Program. They take 8 credit 
hours during that summer term. Two are bona fide, full-blown, 
actual courses--4-credit courses. One is usually in a math 
area, one is usually in a English or literature or writing 
area, and a 2-credit seminar course that teaches them skills 
for studying, time management, and a variety of those things.
    They are very small classes. We hand-pick faculty who are 
very good at helping those young people not only get them up to 
speed, but help their maturity level in terms of being 
successful on a major college campus.
    What we have found is that--and if those students obtain a 
2.0--overall in those they are fully admitted in the fall as 
full-blown students and go ahead. What we have found is that 90 
percent of the students that complete that summer program and 
maintain that 2.0 are going to be successful and will actually 
graduate. It is a very, very good program.
    Now, the problem is--scaling that up is, of course, the 
problem. But it has been very, very successful in allowing us 
to help young people that need a little bit of help without 
stigmatizing them by putting them in a remedial program.
    Mrs. Brooks. Thank you.
    My time is up, and I certainly hope that we deal with 
remediation as we talk about higher ed reauthorization. And I 
yield back.
    Chairman Kline. I thank the gentlelady.
    Mr. Scott?
    Mr. Scott. Thank you, Mr. Chairman.
    Dr. Keel, you are president of a 4-year on-campus 
university. Just generally, what is the value now of a 4-year, 
on-campus education?
    Mr. Keel. Well I think that--it depends on how you would 
consider value. Of course, I would think the value of a 4-year 
education is every bit as important now as it ever has been, 
and perhaps more so.
    What we are finding in many cases, especially if you look 
at industries--and manufacturing is a good example for that--
what we are being told by many of the manufacturing concerns is 
that they are looking now for 4-year-educated individuals 
because of the skill set that they are finding these--that they 
needed for their employees goes well beyond what just a 2-year 
program can offer. The opportunity to be able to have a deeper 
knowledge of the discipline, to be able to convert not only the 
study but put that into practice really requires that 4-year 
degree, so I think it is critically important.
    Now how we make that 4-year degree available to all types 
of individuals I think is really the key.
    Mr. Scott. Well, I was at a meeting earlier today where 
they talked about college costs going up and mentioned that 
University of Missouri in inflation-adjusted dollars in 1983 
was less than $2,600; now it is over $9,000. University of New 
Hampshire, less than $5,000; now it is over $16,000. University 
of Virginia, less than $4,000; now over $12,000.
    If the 4-year, on-campus education is getting out of the 
range of what low-and moderate-income people can do, what does 
that do to society and what does that do to education 
generally?
    Mr. Keel. No, that is certainly an outstanding question, 
Congressman, and one that we are all grappling with, no 
question. We could debate about why the cost of education has 
increased over those years, not the least of which is a 
decrease in state subsidy, which has placed a greater burden on 
families.
    But also, I think that what many college students are 
themselves saying, we want in a full on-campus college 
experience--things that some people call the ``amenities.'' I 
disagree with that term, but it gets at the entire experience.
    I could make the education at Georgia Southern very, very 
reasonable from a cost point of view, but my enrollment would 
plummet because the students wouldn't want to come to that sort 
of environment.
    I think as a system--and the system at Georgia does, I 
think, a very good job of providing different types of on-
campus opportunities for students, some of which are much less 
expensive, that don't have those types of amenities that a 4-
year university like Georgia Southern would have. That coupled 
with a robust online program, which is not only available and 
used by nontraditional students, but in many cases what we are 
finding is that the traditional students tend to appreciate the 
online courses. If nothing else, it gives them a chance to 
carry full-time jobs and be able to take the courses at a time 
when they are not having to work.
    Mr. Scott. The budget that we are going to consider this 
week has significant cuts in Pell Grants. Can you say a word 
about what cutting Pell Grants would do to your student body?
    Mr. Keel. It will have a devastating effect. Currently 
about one-third of our students are on Pell, and many, many 
more are on other types of loans and grants, and I think 
especially the population that are the most strapped from a 
financial point of view are going to be decimated by this.
    Mr. Scott. What do you think about the idea of making more 
of a profit off of student loans, making the student loans more 
expensive, and what would that do to your student body?
    Mr. Keel. Because so many of our students are on student 
loans I think it is also going to have a significant effect on 
their ability to be able to have a higher--a 4-year education.
    Mr. Scott. Thank you.
    Dr. Pruitt, you answered the question on gainful 
employment. One of the problems I have with that calculation is 
it doesn't give any consideration to the admissions. If you had 
a second-chance program, if half of them got a job that would 
be a miracle. If you had a--for people convicted of felonies. 
If you have an Ivy League college, if all of them don't get 
jobs after four years whether they went to class or not, they 
ought to be ashamed of themselves.
    Can you say a word about what gainful employment--how 
gainful employment calculations are affected by the admissions 
rather than the quality of the education?
    Mr. Pruitt. Congressman, I am going to defer on that 
because the nature of my institution is so different it hasn't 
been a factor for us. Again, the average age of our student 
body is around 40; pretty much all of our students are fully 
employed when they come to us; they are, in fact, mid-career 
people. They are really not coming to us because they are 
coming here to get employment, and so I personally haven't been 
invested in that, as some of my colleagues have, so that is why 
I would rather defer to someone that is more in line about it.
    Chairman Kline. Gentleman's time has expired.
    Dr. Bucshon?
    Mr. Bucshon. Thank you, Mr. Chairman.
    Ms. Boughman, you made a comment during one of the 
questions that one of the members had and you said that the--
and I am paraphrasing--that the employment record of your 
graduates is difficult to track. Can you tell us why?
    Ms. Boughman. Once the students leave our institutions, to 
follow them post-institution--we have 28,000-plus. We are 
increasing our graduation, 28,000 degrees a year. And to follow 
our 155,000 students post-graduation is--there are no databases 
that really transfer that information.
    So we can do surveys, and we do do surveys, but we also 
know that those have the same biases that many other kinds of 
surveys do on who responds to those.
    Mr. Bucshon. Do you think that would be different, for 
example, for a small, for-profit university? Do you think that 
they have any better chance of tracking their graduates than 
you might?
    Ms. Boughman. I am sure that some institutions might be 
better than others. Even within our system I know that our 
institutions are better at tracking their students beyond 
graduations. Some of our smaller institutions that have some of 
the internship-type programs that have been mentioned here, and 
the jobs actually flow out of those contacts and the 
internships, maintain information about those, and so their 
alumni databases are enriched by that contact and--
    Mr. Bucshon. So that is a yes or a no. Do you think they 
are going to have any better chance of tracking--
    Ms. Boughman. I think they might have a better chance, yes.
    Mr. Bucshon. Because with the gainful employment--and I 
have said this to my public universities in Indiana when they 
have come to me--be careful what you wish for, because as the 
comments of Congressman Salmon said, this will be looked 
through the lens of all universities at some point. It is a 
slippery slope.
    Have you made any--has anyone made any comments to the 
Department of Education or to the administration about the 
current proposed rule? The comment period is still open till 
May. Have any of you sent in comments about the proposed 
regulation?
    Ms. Boughman. Some of our individual institutions have made 
comments and our chancellor, Brit Kirwan, has been involved in 
several committees that are advising on several aspects of the 
Higher Education Reauthorization Act.
    Mr. Bucshon. Because I would implore public universities 
for sure to comment on the difficulty in tracking your 
graduates, because this is something I am very concerned about. 
Look, I want everyone to get a job when they get out of school, 
and I want people's eyes to be open when they go into a 
university or a--whether it is a nonprofit or a for-profit, 
about what their chances are to become employed if they get a 
certain type of education.
    But to a certain extent, and some of your comments today 
everybody has made, you know, there is some degree of personal 
responsibility on the individual that comes along with that, 
and all of you are working very hard to make sure your students 
all are employed and graduate. But personal responsibility, 
starting really in grade school and high school, as getting 
students to understand that they have to take the bull by the 
horns, so to speak, themselves, and no matter what you all do 
you may not be able to straighten that out.
    But on the gainful employment side, I would just implore 
everybody to look at--through the lens of this may very well be 
applicable to every type of higher education in our country at 
some point, and that, you know, the current tack of applying 
this only to for-profit universities because some people in 
town here don't like for-profit universities is something that 
is a very slippery slope.
    And from what everyone has--from what you have said, 
acquiring data on graduation rates is very difficult not--I 
mean, on employment rates--is extremely difficult, and to put 
something in place that may require people to comply with a 
regulation where the data isn't there to assess their ability 
to apply is dangerous.
    So with that, Mr. Chairman, I yield back.
    Chairman Kline. I thank the gentleman.
    Mr. Polis?
    Mr. Polis. Thank you, Mr. Chairman. I am thrilled that the 
committee has called this important hearing to highlight 
common-sense policies and trends in higher education that have 
the opportunity to increase access and decrease costs at a time 
when a college education is more important than ever for young 
people to have the tools to compete in an increasingly global 
economy.
    I was proud to join Ranking Member Miller's Transferring 
Credits for College Completion Act as an original cosponsor, 
which helps standardize articulation agreements and general 
education policies and that will help ensure that students can 
transfer between lower-cost 2-year and higher-cost 4-year 
institutions and ensure that their credits will go with them.
    I have been proud of my own home state of Colorado in this 
regard. Through Colorado's Guaranteed Transfer Pathways program 
all of our public institutions agree to offer and honor a 31-
credit hour general education curriculum, and I often encourage 
families and high school juniors and seniors to look at 
community college, both through dual enrollment as well as for 
the first couple years as a way of reducing costs, and in many 
cases even improving quality with the increased personalization 
that community colleges can often provide.
    I want to talk a little bit about online education, and 
specifically competency-based education, which I feel also 
holds great opportunity to increase access and affordability. I 
represent the district that is the base of Colorado State 
University's global campus, which is really demonstrating that 
even state public universities are able to successfully offer 
online programs in the marketplace.
    It is a competency-based program which has also contributed 
to the environment for the students who are on campus. But it 
is currently hamstrung because universities like CSU Global, 
they do adhere to existing higher education structure, which 
limits the schedules in which students can enroll and when 
students receive financial aid simply because it is the way we 
have always done it. Never heard a good argument as to why it 
should be done that way other than it is the way that it should 
always be done.
    I was very proud to introduce a competency-based education 
demonstration project, along with Representative Brooks and 
Representative Salmon, which allows institutions to waiver 
regulations in a controlled way and allow Congress and the 
general public to learn more about these opportunities.
    I wanted to ask Mr. Gilligan how the ability to offer 
direct assessment allows students more flexibility and how a 
competency-based demonstration program that systematically 
allows institutions like yours to waive certain regulations, 
such as credit-hour definitions, helps reduce costs and also 
helps other institutions replicate your success.
    Mr. Gilligan. Yes, sir. So I would say the credit-hour 
system basically fixes time but learning is variable, where a 
competency-based direct assessment model fixes learning and 
time is variable. So for those adults who we serve that bring 
real-world experience and competencies into the course room, it 
is more flexible because, one, they can go faster, which speeds 
time to completion, and in our case our FlexPath program is a 
subscription model, so that allows adults to consume as much 
higher education under that subscription model in a quarter as 
possible, and we have, in our first few quarters, many examples 
where adults have moved much faster through their courses than 
they would in a--
    Mr. Polis. And does that help reduce cost to them?
    Mr. Gilligan. Significantly. Exactly. Reduces cost in some 
cases as much as 50 percent.
    Mr. Polis. What barriers--policy barriers--do the rest of 
the panel see with regard to allowing both our public and 
private institutions to experiment with competency-based 
education to improve quality and reduce costs?
    Yes, Dr. Pruitt? And then we will go to Dr. Keel.
    Mr. Pruitt. Congressman, the problem we currently have is 
with the demonstration project the student has to take 100 
percent of their work into the program, and that knocked us out 
of it because our students pick and choose, and very few 
students do 100 percent of anything. So if we were allowed for 
the students to choose that part of their work they wanted to 
do for a competency-based mode we would participate and a lot 
of other colleges and universities would, as well.
    Mr. Polis. Thank you.
    Dr. Keel?
    Mr. Keel. I think, to be honest, that one of our biggest 
challenges is it is not the way we have always done things, you 
know, and the traditional aspects of a 4-year university such 
as ours and the way that our faculty view progression. However, 
I must tell you that our system is beginning to take a very 
serious look at this and we already are seeing how we can put 
those sort of things in place.
    I think the MOOCs--the massively open online courses--and 
the students will bring to you and say, ``I have taken this 
course, now let me prove to you that I have mastered these 
skills,'' is basically saying the same sort of thing. So I 
think those sort of new, innovative ways of providing education 
to students who want to help break down some of these 
traditional barriers.
    Mr. Polis. With that, Mr. Jones, final comment?
    Mr. Jones. Western Governors University was designed as 
competency-based, and that is really the point. Whole programs 
have to be competency-based to be effective, but it is really 
hard to mix the two.
    The other example I will give you that is highly successful 
is Indiana Wesleyan is now in three states, 18 sites, serving 
adults. I asked them how long their seat time was. It is half 
as much as those in public. And I asked them why, they said 
competency--
    Mr. Polis. And I think we are running out of time, but I 
would argue that they should be rewarded rather than penalized 
if they are able to get twice the learning in half the seat 
time.
    And I yield back.
    Chairman Kline. The gentleman's time has expired.
    Dr. DesJarlais?
    Mr. DesJarlais. I would like to thank the chairman for 
holding this important hearing on keeping college within reach, 
and certainly would like to thank our witnesses for sharing 
your testimony with us today.
    With the traditional student quickly being supplanted by 
older workers pursuing better skills to help provide for their 
families, the one-size-fits-all approach to higher education 
seems to be more out-of-date than ever. And all around the 
country, including in my district, colleges are pursuing 
innovative strategies that partner with local industry to match 
student skills and employer needs. One example in Tennessee's 
4th district is Motlow College, teaming with companies like 
Bridgestone and Nissan to provide a mechatronics program, which 
is allowing students at the high school level to get into 
programs and have good-paying jobs, and they are having almost 
100 percent placement rate.
    Dr. Keel, I wanted to visit with you a little bit today. 
First I wanted to let you know that I am the beneficiary of one 
of your alumni in my office. Robert Jameson is our 
communications director and has been for three years, so we 
thank you for that.
    In your testimony you referenced Georgia Southern 
University's Worker-Readiness Education Loan program. Can you 
explain the university's involvement with local businesses in 
the creation of this program and the benefits you see offering 
this to the students?
    Mr. Keel. Yes. Thank you. We have just begun to have 
conversations with business and industry about how this sort of 
program might benefit not only our students but certainly 
business.
    And the concept here is to get an industry or business to 
become engaged with the student at their very first year during 
their college experience. And as the student progresses 
through, not only does the interaction between the student and 
the business become more intense, but the investment that 
industry makes in that student becomes more intense so that by 
the time the student becomes a junior they get a full-ride 
scholarship--a loan, if you will, provided by that industry, 
coupled with the very active co-op program so that the student 
spends a significant amount of time at that particular job 
site.
    This serves a lot of purposes. One, it really helps the 
student know what it is going to be like to work in that 
particular job site and that particular industry and that 
particular community, give them a chance to know what it is 
really going to be like to live there.
    By investing in these students in the early stage and by 
that investment ramping up, it will give them a chance to 
better train that student in what the culture is going to be 
like once the student graduates. That student will graduate and 
then complete a 1-to 3-year commitment with that particular 
industry, that would--loan or that scholarship would be 
forgiven. It would truly become a scholarship at that point.
    We all know industry spends hundreds of thousands of 
dollars during the first year of hiring a new individual only 
to have that individual quit and move to some other location 
not only because they didn't particularly like working in that 
industry, they just didn't like living in that community. And 
so by having this sort of loan program coupled with very active 
co-ops, it will give students a chance to know what it is like 
to live in the community, work in the industry, and if they 
stay with that industry, have an opportunity to have their--
basically their tuition and their fees paid for.
    Mr. DesJarlais. All right. That sounds like a great 
program.
    Another issue facing the higher education community is the 
relationship between 2-year and technical colleges and 4-year 
institutions.
    Dr. Keel, what role does Georgia Southern University play 
in the transfer of credits from 2-year and technical colleges?
    Mr. Keel. No, I appreciate that question very much. We in 
the state of Georgia, I think, have a distinct advantage over 
some other states, perhaps, in that all of the 2-year and 4-
year universities are within the same system. So we have a very 
definite program in place that mandates that a 4-year 
institution accept a student coming from a 2-year institution 
with 30 hours if they have maintained a 2.0 GPA, so we already 
have that program in place and it works very, very well.
    We also have the chance for reverse transfer opportunities 
for a student that may come to Georgia Southern initially as a 
freshman but, for a variety of reasons, discover that they 
don't need a 4-year degree. We can now send them to a 2-year 
university so they can get their associate degree at that point 
in time and have a real credential they can take with them to 
prove--and give them something for the amount of time that they 
spent.
    But in addition to that, the technical college system in 
Georgia is truly a different system, and our two system 
leaders, our chancellor and the commissioner for the technical 
college system, have come together for this whole Complete 
College Georgia process that I mentioned, and we have very 
active articulation agreements with the technical colleges. 
Georgia Southern, for example, now has an articulation 
agreement with Savannah Technical College in logistics, where 
those students can get their associate degree at Savannah Tech 
and transfer all of those credits directly to Georgia Southern 
and seamlessly go right into either a B.S. Degree in Logistics 
all the way to the Ph.D. if they so desire. We have got other 
articulation agreements with other technical colleges, as well.
    So it works very, very well. You just have to have 
institutions and leadership willing to make that happen.
    Mr. DesJarlais. Well, thank you.
    Yes?
    Ms. Boughman. Yes. I would simply say that to have these 
broad-based articulation systems in place like we do in 
Maryland not only allows for the transfer of credit from the 
more traditional institutions, but as we move forward with 
these new, innovative kinds of competency-based educations, it 
will provide the initial framework for which the faculty from 
the institutions can converse and, in fact, determine ways that 
those competency-based credits can transfer, as well.
    Chairman Kline. The gentleman's time has expired.
    Ms. Hinojosa?
    Mr. Hinojosa. Chairman Kline and Ranking Member Miller, 
thank you. Thank you for holding this interesting hearing to 
discuss ways in which this committee can best meet the needs of 
contemporary students.
    I believe that our federal policy must be responsive to our 
nation's changing demographics, including better support for a 
college education for veterans, students of color, first-
generation college students, online-learners, and adults who 
are retraining for new careers, as we have been listening this 
morning.
    My first question is for Mr. Gilligan.
    In your written testimony you said purchasing specific 
books and materials is not required for most courses, but that 
there are recommended textbooks. Does Capella Education Company 
make an effort to seek out and to catalogue open education 
resources, such as free open source textbooks being written by 
professors and students at Rice University in Texas?
    Mr. Gilligan. So I can't speak specifically to Rice 
University. I can tell you that in our direct assessment model 
we are agnostic as to the source of learning and we encourage 
our learners to access content wherever it is appropriate and 
aligned with the curriculum, and then our faculty are engaged 
in assessing the demonstration of competencies that our 
learners submit.
    Mr. Hinojosa. You might take a look at what I asked you on 
the work being done at Rice University because they came here 
and we had a hearing and they piqued my interest so I went to 
visit them, and it is amazing at how that is moving.
    So let me move to Dr. Boughman.
    I want to say that I like your university. I have staff 
members who have graduated from there and I am an original 
cosponsor of H.R. 4348, the Transferring Credits for College 
Completion Act of 2014. And I am interested in learning from 
you how your articulation system works.
    Ms. Boughman. Well, I could spend another few minutes on 
that, but I would like to comment first on the open source--
    Mr. Hinojosa. Yes, please do.
    Ms. Boughman. Yes. We have two initiatives in our system--
one that is directly driven by the students, as a matter of 
fact. We have a test bed going on right now. We believe that 
this semester we will save $166,000 for students in just 11 
courses. And our University of Maryland University College, by 
the year 2016, will have totally open-source materials for 
their students so there will be no textbook costs.
    On the ARTSYS, the articulation system, it provides a wide 
variety. You can do a course by course articulation. You can go 
in and find if any course--there are over 200,000 courses--you 
can find out from which colleges they would transfer from and 
to and what kind of credit would be available. It also allows 
for students to investigate pathways and the best way to go 
from a 2-year to a 4-year or from one 4-year to another 4-year 
institution without losing credit.
    Mr. Hinojosa. Does your articulation specify how the course 
equivalencies are determined and how is the system kept 
current?
    Ms. Boughman. The course equivalencies are determined by 
the faculty on the campuses, and this is a key factor in the 
University of Maryland System articulation system and our work 
with the other institutions. Our faculty are consistently and 
constantly involved in evaluating and reevaluating courses as 
they come forward, which is one of the primary reasons that 
this works. The faculty drive and are in control of the content 
and accepting of those courses.
    Mr. Hinojosa. Thank you.
    Ms. Boughman. Thank you.
    Mr. Hinojosa. Mr. Jones, I strongly believe that our nation 
cannot meet its college completion goals without graduating 
greater numbers of Latinos, students of color, and low-income 
college students. Can you share your views on what states and 
institutions can do to help these student populations succeed 
and graduate from college? And can you also speak specifically 
to the issues of articulation and transfer agreements that I 
asked Dr. Boughman?
    Mr. Jones. [Off mike.]
    Mr. Hinojosa. Can you see if your microphone is turned on?
    Mr. Jones. Sir, yes. You are absolutely right about the 
changing demographics. And as I said in my opening, we are 
doing a better job of attracting Hispanics and African 
Americans to go to college, but we are losing them in remedial 
classes and along the way, and their graduation rates are much 
lower than they are for white students.
    There are a few colleges--for example, Georgia State 
University in Atlanta--their Hispanic, African American, and 
white rate is exactly the same; same is true with Florida State 
University, and they have done that with pretty clear pathways, 
academic maps semester by semester, fixing a remedial problem 
and having what they call intrusive advising.
    Chairman Kline. Gentleman's time has expired.
    Mrs. Davis?
    Mrs. Davis. Thank you, Mr. Chairman.
    And thanks to all of you for being here.
    I wanted to shift for a second to our veterans who are 
attending schools at great numbers across the country. Do all 
of you have experience with that?
    Yes?
    Ms. Boughman. Yes, ma'am. In Maryland we have a veterans 
center at every one of our institutions--
    Mrs. Davis. Yes. Okay.
    Ms. Boughman.--and University College is especially well-
known for its--
    Mrs. Davis. Thank you. And I think we have a number of 
centers around the country and I am--had a chance to visit some 
and they are doing a good job. I mean, they are helping to 
integrate--my question is more about the way that we can take--
the American Council on Education has basically come up with a 
military guide so that those skills and competencies that our 
enlisted people have that they are learning through their 
enlistment can be credited.
    How would you incorporate that into the reauthorization of 
the Higher Ed Act?
    Ms. Boughman. Currently in the--
    Mrs. Davis. Do you think there is a role for that?
    Ms. Boughman. Currently in the state of Maryland we have 
work groups that are focused directly on defining pathways and 
defining cores of competencies that our veterans do come home 
with. And in fact, we will be able to smooth those and insert 
those into our articulation system.
    But once again, it is the engagement and face-to-face 
conversations about the realities of the competencies that are 
brought home, not just a few sentences describing the 
experience of the veteran.
    Mrs. Davis. Right. I guess what I am asking is if we can 
perfect that, do you see a sort of universality to that? 
Because, you know, our kids are basically developing those 
competencies, they are using them everywhere, and there 
shouldn't be a great difference, I think, between schools and 
how they accept those competencies.
    Ms. Boughman. I would suggest that we do a fairly good 
job--we could always do better--about sharing best practices 
among our institutions. And I would actually like to turn to 
Mr. Jones and Complete College America and its umbrella focus 
on these kinds of things and its emphasis on bringing best 
practices to bear nationwide.
    Mr. Jones. Yes. If I can speak very quickly, that is what 
we do. We identify best practices in states, like what you just 
did, and then we--with the 33 states that we work with, we 
share those best practices. So I would be happy to follow up 
with you to learn more about that.
    But I also want to point out that veteran graduation rates 
is also something that IPEDS doesn't count, and so we don't 
know whether these students graduate. And I would humbly 
suggest to Chairman Kline that I agree with his point about not 
adding additional requirements, but there could be some 
tradeoffs--what do we need to collect in 2014 as compared to 
what we needed to collect before? And we need to know if 
veterans graduate.
    Mrs. Davis. Do you think, is there--and I see Dr. Pruitt is 
ready to jump in--should there--these are recommendations. I 
think what I am looking for, should there be some kind of a 
requirement, something, particularly because these kids are on 
their--the G.I. bill particularly, we know there have been some 
issues around whether or not they are actually getting, you 
know, the bang for the buck.
    Should there be some role here as we develop the 
reauthorization that either--will hold schools accountable? And 
it is difficult in terms of what they do afterwards. I agree. I 
know that that is difficult.
    However, you know, we ought to be able to find some way so 
that employment matters after kids leave school.
    Dr. Pruitt?
    Mr. Pruitt. Congresswoman, I would say two things: One, as 
a general rule, I would ask that you not compel us to do 
something that we are committed to doing anyway. We believe in 
this. There isn't a college or university president I have ever 
met that wasn't committed to our veterans.
    We are the most veteran-friendly school in New Jersey. We 
enroll more veterans than the rest of public higher education 
combined.
    But I want to take this opportunity to talk to you about an 
important disincentive. If you are a veteran and you go to a 
community college, if you go to a residential college, your 
housing allowance is counted as an expense and cost of doing 
government--I mean, cost of expense of going to--getting an 
education. If you come to my institution, housing is disallowed 
as a cost.
    So the most veteran-friendly college in New Jersey that is 
the lowest cost and most efficient, if you are a veteran if you 
come to my institution, you get penalized for coming to us, 
where if you go to a community college you get rewarded by 
having your housing cost allowed. I question the logic and the 
reasonability of that.
    It gets back to the theme about our regulatory environment 
and what it is incentivizing, what is it punishing. We get 
regularly punished because we are good at what we do in serving 
the people that you want us to serve.
    So yes, I do think that things like that we really do need 
to fix and clean up.
    Mrs. Davis. Yes.
    Mr. Pruitt. Our veterans come to us in spite of the fact 
that they get punished because of the quality of the experience 
they get.
    Mrs. Davis. I appreciate that. And I think that what we 
want to be certain is that students aren't necessarily sent 
back to community colleges if, in fact, with assistance and 
with kind of the concurrent remediation that may in fact be 
needed, they can do that.
    And my time is up. I wanted to go on, but thank you all for 
being here.
    Chairman Kline. I thank the gentlelady. Indeed, her time 
has expired.
    Mr. Messer?
    Mr. Messer. Thank you, Mr. Chairman. Thank you for this 
important hearing. I am sorry I have had to be in and out; I am 
also in the Budget Committee markup today, as well.
    I wanted to talk a little bit--follow up on the chairman's 
earlier comments when I was here about data and the importance 
of data in driving reform. It is important for consumers to 
know what they are getting into, but it is also important as 
policymakers to help us understand where we can best make 
changes.
    You know, I saw in Indiana, probably of all the reforms we 
made at the high school level in graduation rates were the 
reforms that accurately calculated graduation rates. You know, 
prior to that change over the last 6 or 8 years all across 
America we thought we were graduating 80 or 90 percent of our 
kids; turns out we weren't, and once we started to count 
accurately, reform followed that.
    And so I wondered if anybody on the panel would like to 
comment a little bit about the importance of accurate data in 
helping drive the right kinds of outcomes.
    Sure.
    Mr. Jones. So yes, and we collect data from 30 states, 
primarily because IPEDS doesn't collect some of this data. Like 
IPEDS does not collect remediation data, it doesn't collect how 
many credits it takes to graduate. For example, students that 
should be getting 60 credits for an associate degree, they get 
85. It takes about 140 credits rather than 120.
    And so all these pieces are missing, and I think you are 
right, it is consumer-friendly information. It is also what 
policymakers need. And I would point out that maybe there can 
be some tradeoffs, some things we are currently collecting that 
are relics--
    Mr. Messer. Could you give any examples of that? Because I 
do think the one sense on our committee is that, you know, we 
don't want to just pile on more reporting data. With the best 
of intentions over a period of many, many years people have 
been, you know, adding more and more, adding more and more.
    I think the real answer is, get the right kind of data and 
try to get rid of some of the reporting that is not making a 
difference.
    Yes, sir?
    Mr. Moldoff. I guess I am really the only data guy up here 
from the standpoint of information, I think is what you are 
really asking about.
    Mr. Messer. Yes.
    Mr. Moldoff. I mean, the data itself across the 6,000 
public institutions and higher education institutions, when you 
add it and you bring it all together, if you had the 
opportunity to do that, would all look like a big mess, because 
every single data system is unique to itself, representing the 
different types of institutions that are here.
    So it is very difficult to take that and put it all into 
one big system and say, ``Let's spit out some valuable 
information.'' So I think the challenge we have is agreeing on 
what is most important to measure, which goes back to when you 
look at competencies, whether it is CLEP, A.P. courses, any of 
it, it is what do you really want to measure.
    And part of the problem we have is we build these systems 
from the get-go without knowing what you want to measure.
    Mr. Messer. Isn't another part of the problem that we build 
it on a set of assumptions about what higher education is that 
aren't true anymore? It is not four homecomings and a backpack, 
and that is where most of our data systems build on.
    Mr. Moldoff. Right. So the data itself is causing part of 
the problem. We are now fixed to that data and the systems that 
we have in place are antiquated.
    Mr. Messer. Dr. Pruitt, you wanted to--
    Mr. Pruitt. Yes. The assumptions underlying it are 
important.
    We assume that you go to school for four years, graduate, 
that is retention, that is right graduation, that is good. But 
if you look at adult students, the last time I looked at this--
it has been a long time--the average time to completion for an 
adult student that was fairly vigilant about it was about 9 
years.
    What happens in the current data sets--and that is why I 
haven't talked about the rating system, but, you know, I mean, 
they haven't come out with the final metrics, but the reason I 
am so concerned about it is that we have the ability to mislead 
by the data if we don't have the right assumptions under it.
    One of the proposals that I heard was that we ought to 
measure the income of a student five years out of college. 
Well, that means we would only end up educating investment 
bankers; we would ignore teachers and nurses and all of--and 
everyone else.
    But if you did that in New Jersey, the school that would 
have the highest income five years out of college would be 
Thomas Edison. Why? Because my students are 40 and 50 years 
old. They are at the height of their earning.
    So if you graduated from Princeton or NJIT or Stevens, five 
years out they are not going to come close to the earning of my 
students right now. To suggest that somehow we are a better 
school than those institutions because we would have better 
employment data would be ludicrous.
    You will never get the right answer to the wrong question, 
and we still have a mindset that wants to be homogenous and 
apply a template for 18-to 22-year-old to these very diverse 
student--very diverse populations. And that is my big concern 
about them. We have horrible metrics now. We don't have 
information to document this stuff, and then we often make 
conclusions about it that aren't conforming to what the 
realities are on the ground.
    Mr. Gilligan. Just a quick comment--I see time is running 
out--you know, maybe we need to change the conversation. Rather 
than collecting data for comparative purposes, maybe we should 
collect data to improve outcomes.
    Mr. Messer. Yes, I--
    Mr. Gilligan. And I think that would help change decision-
making.
    Mr. Messer. Thank you, Mr. Chairman. I know my time is 
expired.
    I think the last point is a very good one, which is just 
that we have had a system based on access. By that measure we 
have been wildly successful over the last several decades. We 
need to move towards a system driven by outcomes.
    Thank you.
    Chairman Kline. Gentleman's time is expired.
    Mr. Tierney?
    Mr. Tierney. Thank you, Mr. Chairman.
    Mr. Keel, I want to just start with a comment that you hit 
a point, I think, is very important in terms of people being 
able to afford college. We are trying to strengthen the middle 
class, we are trying to give families opportunity, then states 
just have to step up to the plate.
    And we put a maintenance of effort provision into the last 
Higher Education Opportunity Act for that very reason. You 
know, states, understandably under serious pressure 
budgetarily, have been ratcheting back higher education 
investments in the public education system. And when the 
budgets get good they put a little back in but they never seem 
quite to get where they were so over time it just keeps going 
down.
    One of the answers about affordability and access certainly 
is to have the states get back in the game and do that, and I 
know--I believe we should keep that maintenance of effort 
provision in and perhaps toughen it up a little bit so that 
that happens, and I think that is critical. So thank you for 
bringing up that issue.
    Competency-based education is kind of an interesting, 
exciting concept to look at and how we implement it. I am 
curious to know how that affects transfers. If somebody goes to 
an institution that gives a lot of credits for competency-based 
matters and then the student wants to transfer to a school that 
doesn't have that program, or vice-versa, what are we finding 
on that?
    I see, Mr. Moldoff, you are nodding your head. You have 
some experience with that?
    Mr. Moldoff. That is a very, very good question. And I 
think part of the problem we have is trust, and whether it is a 
community college doing the assessment and then being received 
by a 4-year senior school, there has to be trust between the 
institutions who is doing the work. And that fabric of trust 
is--we have to know each other, and so it comes back to 
collaboration on--whether it is state-based, it is initiated in 
the collaboration. I think the stimulation that we have seen 
over the last decade is that there has been a lot of built-up 
new trust that is being built as a result of state systems 
getting together, working together, doing the hard legwork that 
is necessary.
    Moving from the competency-based is still a transformation 
that takes some competency and they convert it back into 
course. So that process is eventually going to evaporate, but 
it is going to take time for us to remove that from the systems 
that are currently in place.
    Mr. Tierney. Well, I guess it always comes down to who sets 
the standards and who makes the assessments, right?
    So, Dr.--is it Boughman or Boughman?
    Ms. Boughman. I think Mr. Moldoff has hit the point. We are 
in a period of transition. But in fact, the receiving 
institution is going to have to make the decision about receipt 
and approval of that credit.
    But sitting down and working together across institutions 
is the way that we are doing this, and in our system University 
of Maryland University College is leading the way on 
competency-based education but we are working closely together 
in developing the systems that will eventually allow such a 
transition within a computer-based system. But we really are on 
the front edge of this. The conversations are serious.
    Mr. Tierney. I am sorry. I didn't mean to interrupt you.
    But it seems easier to do within a system, like a state 
higher education system, than it is when you start mixing that 
with private for-profits, not-for-profits, and how do people go 
back and forth or one state to another. So what groups or 
entities would be working on that problem for those kinds of 
transfers?
    Ms. Boughman. Well, in the state of Maryland we actually 
have the Segmental Advisory Council, which is the community 
colleges, the private career schools, the public system, the 
two public institutions not involved in USM and the independent 
colleges and universities, as well. And we all meet on a 
monthly basis to, in fact, initiate some of these questions and 
then determine work groups that can work together.
    But our Maryland Higher Education Commission does aggregate 
those people and have serious conversations about that.
    Mr. Miller. Will the gentleman yield?
    Mr. Tierney. Yes, I will yield.
    Mr. Miller.--On the competency issue, how do they do when 
they enter the more traditional system--
    Mr. Gilligan. Yes, sir. I was going to comment on that.
    So at Capella we have articulation agreements with over 200 
community colleges for our credit-hour programs. We have 
invested, in addition to that, in creating equivalencies 
between our competencies and credit hours, so students 
transferring in with competencies we can translate, students 
transferring out we can translate, and that has to meet exactly 
the same standard as our credit-hour transfer policies. I will 
say, it requires a significant amount of investment.
    And by the way, one of the reasons we did this, besides 
serving students, is that federal financial aid is tied to the 
credit hour, so in order for direct assessment programs to be 
eligible for federal financial aid, we have to create these 
equivalencies, which create cost and administrative burden. So 
one of the things we hope can result from today's session, 
today's hearing, in our demonstration project is how can we 
think about decoupling or creating a separate financial aid 
system to support direct assessment programs?
    Mr. Tierney. Or one that would do both but support it, as 
well.
    If I have enough time, my other question here was going to 
be, it is disturbing--one of my colleagues brought it up 
earlier--for the remedial situation. See students going in, 
taking remedial courses, using their Pell Grants to do that, 
and then sort of before they even get out with credit, having 
dissipated a lot of that money on that basis--should we be 
looking at our policy of when and how an institution gets 
reimbursed for those courses in order to drive them towards 
some of the more best--or the better best practices that make 
sure this doesn't happen?
    Mr. Jones?
    Mr. Jones. Yes, if I could, I think we--I think most states 
are starting to do that, put higher standards of progress in 
their state financial aid systems. But the real key is that, as 
Representative Miller said, these students run out of money 
before they graduate, some of them run out of money before they 
transfer, and so if you want to talk about affordability, a 
more timely progression toward graduation is key and when you 
get to HEA I think there are a number of incentives or 
directives that you might be able to put in HEA for more timely 
graduation.
    Mr. Tierney. If I may, Mr. Chairman--so do you have those 
recommendations somewhere in writing that you could direct us 
toward, or is it something we should just get back to you on?
    Mr. Jones. What we have are state policies, but happy to 
share those with you.
    Mr. Tierney. Thank you.
    Thank you.
    Chairman Kline. I thank the gentleman. That was an 
excellent follow-up question.
    All members have had an opportunity to address the panel, 
so we are about to wrap up.
    Before we do, I want to recognize Mr. Miller for any 
closing comments he may have.
    Mr. Miller. Thank you very much. Thank you so much. I think 
this has been very helpful panel to us as we think about the 
reauthorization.
    Mr. Jones, I still can't reconcile everything I heard this 
morning and your third paragraph in your testimony. You said if 
you look at the numbers shows how serious the challenge is for 
our country: Only 4 percent of full-time students complete an 
associate's degree on time, and that is 2 academic years. And 
at non-flagship, 4-year institutions only 19 percent complete 
their degree on time.
    And I understand that every student isn't coming there to 
run the traps over a 4-year period and it is neat and it is 
compact and that is the way it is. That is not true. These are 
still really kind of alarming figures, or am I not digging--are 
you digging too deep or we are not digging deep enough? Where 
is the mismatch here between a lot of the testimony today and 
these figures?
    Mr. Jones. Clearly not everybody is going to graduate in 
four, not everybody is going to graduate in two. We understand 
that.
    Mr. Miller. I understand that.
    Mr. Jones. These are full-time student numbers, and yes, 
they are alarmingly low, and yes--and that is why, as you 
pointed out, these students run out of money before they 
graduate. And so yes, I think it is something that--again, I 
hate to go back there, you know, data drives policy, and with a 
better data system at the state level, at the federal level, we 
could be more informed about these kinds of issues.
    Mr. Miller. I went and visited one of my state colleges and 
they used the--I think it is the circuits course from MIT. If 
you want to become an--if you want any engineering, whatever 
type, you have got to pass that course. And 70 percent of the 
students were failing it, and then 70 of the students that 
failed borrowed money, came back, and took it a second time 
because they wanted to be engineers.
    They introduced the MOOC from MIT and 70 percent passed. 
And one of the things they discovered, which I think a lot of 
professors discover, is that after in a 75-minute lecture 
course after about 7-1/2 minutes you had more energy dreaming 
asleep than you would do in listening to the course. And so 
this was maybe a better way to do this.
    But these are the kinds of things we have to think about. I 
am not saying that would work for everybody or everybody wants 
to embrace that.
    I would like to follow up with what Mr. Tierney said. I 
think that as we get to the HEA that we think about the 
incentives to start to change this, but I can't give up on this 
data because if nothing else, it may force some students to 
think as they set out on their plan, and, you know, we are 
reminded all the time in this committee from various witnesses 
that 80 percent of our students who are going to college are 
going there to get a job. We can think of all the other 
romantic reasons why they are going, but the recession had a 
big impact on families and students, okay, so that is where 
they are no matter what school they are going to, how elite or 
how close to home.
    And I think we have to keep that in mind and we can't live 
with these figures. We can't live with it as taxpayers because 
we are not getting a return on that money that we are putting 
out.
    Mr. Jones. Well, I would just--and as we talked about 
remediation, as we talked--why we have students that could take 
15 take 12, they are already on the 5-year plan, and so there 
are a number of these policies that in HEA you could put 
direction in, and we have had some states--Hawaii, for example, 
Utah, for example--adopt--I think we have 15 states working on 
15 to finish, and so some of it is changing the culture of 
thinking about completing and not just thinking about getting 
them in the door. Most states have a 10-day count; they count 
you after the 10th day.
    Mr. Miller. I don't know if I am right or not, but I think 
a pretty definitive report on remediation sort of scorched this 
program about five or six years ago, which clearly said this is 
a major impediment to any notion of completion.
    Mr. Jones. We put one out called, ``Remediation: Bridge to 
Nowhere.'' The Community College Research Center continually 
documents the failure of remediation.
    Mr. Miller. Thank you.
    Thank you very much for all of your contributions this 
morning.
    Chairman Kline. I, too, want to thank the witnesses. It has 
been a fantastic panel.
    A lot of innovation going on out there that is driven by 
competition in some cases, by need to survive in others, just 
by great, great minds putting great ideas together. We want to 
see that continue.
    I mentioned in my opening comments this is the 14th in a 
series of hearings, some subcommittee hearings chaired by Mrs. 
Foxx, some full committee. But we are trying to do the best we 
can to understand this.
    And my own idea, my own goal as we go and reauthorize the 
Higher Education Act is that we make sure we are not putting 
federal policy in the way of the advancements that you are 
making, and if it makes sense for us to put language in there 
that helps this kind of advancement.
    And it is a tricky business here because we write a law 
based on a snapshot in time, and in these days a week later it 
has changed and we have already put it in law. So we just want 
to be really careful here.
    I really appreciate the engagement of all my colleagues 
today as we have gone through this, and I want to thank all of 
you, coming from diverse institutions but with some terrific 
ideas and some terrific track records.
    So again, thank you to the witnesses for being here today.
    That completing all our business, the committee is 
adjourned.
    [Whereupon, at 12:18 p.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
